<html>
<title> - HURRICANE SANDY: RESPONSE AND RECOVERY PROGRESS AND CHALLENGES</title>
<body><pre>[Senate Hearing 112-861]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-861
 
     HURRICANE SANDY: RESPONSE AND RECOVERY PROGRESS AND CHALLENGES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    DECEMBER 5, 2012--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         
         
         
         


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                                __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
 80-812 PDF                     WASHINGTON : 2015       
     


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                               
                               
                               
                               
                               
                               
                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                 MARY L. LANDRIEU, Louisiana, Chairman
FRANK R. LAUTENBERG, New Jersey      DANIEL COATS, Indiana
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama
PATTY MURRAY, Washington             LISA MURKOWSKI, Alaska
JON TESTER, Montana                  JERRY MORAN, Kansas

                           Professional Staff

                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                      Rebecca M. Davies (Minority)
                        Carol Cribbs (Minority)

                         Administrative Support

                              Nora Martin
                      Courtney Stevens (Minority)
                      
                      
                      
                      
                      
                      
                      
                      

                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mary L. Landrieu....................     1
Letters Submitted to President Barack Obama by Senator Mary L. 
  Landrieu.......................................................     5
Prepared Statement of Senator Mary L. Landrieu...................    10
Prepared Statement of Senator John D. Rockefeller IV.............    11
Statement of Senator Daniel Coats................................    12
Statement of Senator Thad Cochran................................    13
    Prepared Statement of........................................    14
Statement of Senator Barbara A. Mikulski.........................    14
Invest in Mitigation.............................................    15
Statement of Senator Joseph I. Lieberman.........................    15
Statement of Senator Charles E. Schumer..........................    17
    Prepared Statement of........................................    20
Electric Grid....................................................    20
Subways..........................................................    21
Prepared Statement of Senator Joe Manchin........................    21
Statement of Senator Frank R. Lautenberg.........................    22
    Prepared Statement of........................................    22
Statement of Senator Jack Reed...................................    25
Rhode Island.....................................................    25
Letter Submitted to President Barack Obama by Governor Lincoln 
  Chafee.........................................................    27
Statement of Senator Kirsten E. Gillibrand.......................    30
New York.........................................................    30
Statement of Senator Thomas R. Carper............................    32
Delaware.........................................................    32
Statement of Senator Ben Cardin..................................    34
Maryland.........................................................    34
Statement of Senator Richard Blumenthal..........................    35
Statement of Hon. Shaun Donovan, Secretary, Department of Housing 
  and Urban Development..........................................    37
HUD's Response to Hurricane Sandy................................    38
Rebuilding Smarter...............................................    39
Prepared Statement of Hon. Shaun Donovan.........................    40
HUD's Participation in Ongoing Response and Focus on Recovery 
  Efforts........................................................    40
The President's Announcement of Secretary Donovan To Lead Federal 
  Rebuilding Efforts.............................................    41
Statement of Craig Fugate, Administrator, Federal Emergency 
  Management Agency, Department of Homeland Security.............    43
National Recovery Framework......................................    43
Prepared Statement of Craig Fugate...............................    44
Preparations for Hurricane Sandy.................................    45
Coordinated Response and Recovery Efforts........................    45
Disaster Relief Fund.............................................    46
Individual Assistance............................................    46
Public Assistance................................................    46
Hazard Mitigation Grant Program..................................    46
Infrastructure...................................................    47
Housing Plans/Recovery...........................................    48
Delayed Funding..................................................    49
Public Assistance Reforms........................................    50
Reform Disaster Assistance.......................................    51
Invest in Mitigation.............................................    52
Mitigation.......................................................    53
Request for Hurricane Sandy Funds................................    54
FEMA Appropriations--Disaster Relief Fund........................    55
Mississippi......................................................    55
Helping Citizens Impacted by Storms..............................    57
Statement of Senator Patty Murray................................    59
Disaster Block Grant.............................................    60
Helping Section 8 Residents......................................    61
Long-Term Recovery Estimates.....................................    64
Resolving Outstanding Projects...................................    64
Hurricane Katrina Funds..........................................    64
Additional Committee Questions...................................    65
Questions Submitted to the Federal Emergency Management Agency...    65
Questions Submitted by Senator Mary L. Landrieu..................    65
Slow Pace of Hazard Mitigation Funding...........................    65
Child Care.......................................................    66
Housing Solutions................................................    66
Case Management and Community Disaster Loans.....................    67
Community Disaster Loans.........................................    68
Technology To Measure Storm Intensity............................    68
Question Submitted by Senator Frank R. Lautenberg................    70
Questions Submitted by Senator Daniel Coats......................    70
Relationship Between FEMA and the Department of Transportation...    70
Community Disaster Loans.........................................    70
Questions Submitted by Senator Thad Cochran......................    70
Questions Submitted to the Department of Housing and Urban 
  Development....................................................    72
Questions Submitted by Senator Mary L. Landrieu..................    72
Disaster Recovery Grants.........................................    72
Housing Solutions................................................    72
National Disaster Recovery Framework and Secretary Donovan's Role    73
Low-Income Housing...............................................    74
Leveraging Volunteers............................................    74
Community Disaster Loans.........................................    75
Questions Submitted by Senator Frank R. Lautenberg...............    75
Questions Submitted by Senator Daniel Coats......................    75
National Disaster Recovery Framework.............................    75
Funding Needs for Recovery.......................................    76


     HURRICANE SANDY: RESPONSE AND RECOVERY PROGRESS AND CHALLENGES

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2012

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Lautenberg, Murray, Coats, 
Cochran, Mikulski, Reed, Lieberman, Schumer, Carper, Cardin, 
Gillibrand, and Blumenthal.


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning, everyone. Thank you for 
joining us for this very important hearing on the response and 
recovery and the challenges before us to Hurricane Sandy. We're 
here today to evaluate the response and recovery efforts in the 
aftermath of Hurricane Sandy, which struck the Northeastern 
United States on October 29 as the largest sized storm system 
in U.S. history.
    Hurricane Sandy claimed the lives of more than 130 
Americans, destroying more than 340,000 homes and more than 
200,000 businesses, and leaving more than 8.5 million families 
without power, heat, or running water for weeks. I understand, 
in a few neighborhoods and in a few buildings in New York and 
New Jersey, that still is the case.
    The scale of this disaster has created significant housing 
and transportation challenges and a successful recovery will 
require a sustained effort at the Federal, State and local 
level from government, and from private-sector and voluntary 
organizations.
    By and large, the Federal Government's response to 
Hurricane Sandy has been robust, and it needed to be. The 
Federal Emergency Management Agency (FEMA) has provided more 
than 14 million meals, more than 16 million liters of water, 
more than 1.6 million blankets, and more than 100,000 tarps. 
The Department of Defense (DOD) has delivered 9.3 million 
gallons of gasoline to more than 300 gas stations. More than 
270 million gallons of salt water were pumped out of transit 
tunnels. At the peak of the response, 17,000 Federal personnel 
were involved and more than 11,000 national guardsmen.
    This was all necessary because of the devastation I 
described earlier, but also 490,000 people have registered for 
temporary housing and other individual assistance.
    I want to commend the thousands of first responders, 
volunteers and neighbors who have worked tirelessly to help 
those in need and continue to do so as this subcommittee 
hearing is taking place this morning.
    The President and numerous administration officials have 
been on the ground to survey the damage, meeting with State and 
local leaders and neighborhood organizers. The Federal 
Government has provided more than $2.4 billion in relief to 
date through FEMA, the Small Business Administration (SBA), the 
Department of Agriculture (USDA), the Department of 
Transportation (DOT), the Department of Health and Human 
Services (HHS), and other agencies. Nine States have been 
declared disaster areas as a result of Hurricane Sandy and 
their citizens will require significant resources.
    That is why I have called upon Congress to enact 
supplemental disaster legislation before the 112th Congress 
adjourns in January. Congress should not allow itself to get 
tied up in knots engaging in a political debate over offsets. 
This is not the time. Congress did not require them after 9/11 
and we did not do so after Hurricanes Katrina and Rita or other 
catastrophic destruction.
    In responding to this disaster and disasters such as 
Hurricane Sandy, Congress should focus on helping those in need 
and rebuilding communities as quickly as possible. It's 
absolutely critical that the administration come forward with a 
detailed request. I understand that just within the last 15 
minutes there have been some reports of that request, its size 
and its contours. We will discuss that in just a moment.
    I know that many of my colleagues who are present here 
today agree with the urgent need to advance the supplemental. I 
look forward to hearing your suggestions regarding the 
specifics of the programs and authorities that can be utilized 
to best meet the needs of your constituents.
    I sent two letters to the President last week related to 
mitigation and recovery efforts associated with Hurricane Sandy 
and other ongoing disasters in this Nation, and there are quite 
a few that are still open. A copy of each letter will be 
included in the official record of this hearing [see pages 5-
9].
    The first included a list of recovery tools that the gulf 
coast leaders found effective in the aftermath of Hurricanes 
Katrina and Rita. I really appreciate Senator Cochran's help 
and support in that effort, as we had to design some new tools 
to respond to Hurricanes Katrina and Rita. We'd like to make 
some of those available to the Northeast.
    Many of our existing laws simply do not meet the needs of 
communities impacted by catastrophic disasters. The Stafford 
Act, various ad hoc Community Development Block Grant (CDBG) 
authorities, and other Federal agency program restrictions 
present needless bureaucratic hurdles to disaster victims in 
their time of need. We learned this lesson painfully after 
Hurricanes Katrina and Rita. Unfortunately, the legislative 
solutions that we fought for were enacted in a form that 
limited their application to previous disasters. We should not 
repeat history.
    Senator Lieberman is here with us. Senator Collins is not, 
but in spirit. Both have worked vigorously on this and I want 
to thank them for their leadership.
    We need to continue to work together to finalize a 
consensus package of reforms. A few elements would include: 
more flexible disaster recovery grants versus regular CDBGs. 
They are very different needs when a community is developing 
normally and when a community is trying to do a rapid recovery 
after a catastrophic disaster, and our help should recognize 
that.
    Streamlining FEMA public assistance by advanced funding on 
the basis of reliable estimates for damage to facilities can 
really help a community move forward more quickly.
    Eliminating the arbitrary penalty on alternative projects 
is also something I suggested.
    Authorizing global settlements for facilities that serve 
the same function, i.e., all police stations, all fire 
stations, all libraries, all schools, instead of one at a time, 
would make a tremendous difference.
    And establishing an independent arbitration procedure so 
when the local governments are disagreeing with the Federal 
Government about what is owed and that argument goes on and on, 
it won't go on indefinitely. There will be a rational end and a 
good decision made.
    Also, allowing families to use FEMA individual assistance 
for disaster-related child care expenses. We've found it's 
impossible for parents to get back to work without a place for 
their children to be in day care. It's as simple as that.
    Cost-effective repair of rental units, adjusting the $5 
million cap on community disaster loans are additional issues 
that need attention. I'm not sure what $5 million would mean to 
the city of New York or cities of any such size; $5 million is 
not much to offer in this time.
    So those are just a few suggestions. I'm looking forward to 
others.
    My second letter to the President called for a minimum of 5 
percent in supplemental disaster funding to go toward the U.S. 
Army Corps of Engineers' (USACE's) mitigation projects. That 
will buy down taxpayer exposure to future flood risk. Our 
Government continues to dangerously underinvest in flood 
protection infrastructure, and U.S. communities and taxpayers 
are incurring exorbitant disaster assistance costs as a result 
of this practice, which has become a practice, a dangerous one.
    The National Institute of Building Sciences issued a 
congressionally chartered report that determined taxpayers save 
$4 for every $1 invested in smart mitigation measures. Yet the 
USACE's new construction budget for the entire Nation this year 
is only $1.6 billion, despite a backlog of $40 billion worth of 
projects.
    Hurricane Irene tore through the same region of the country 
last year and as winter sets in the Northeast faces continued 
threats from nor'easters and additional extreme weather events. 
This reflects a trend of more frequent and costly disasters in 
this country. Last year alone, 48 States experienced 
Presidentially Declared Disasters, 14 of which exceeded $1 
billion in damage, the most in recorded history. Rising sea 
levels, more active hurricane seasons, increased development 
along our Nation's coasts clearly reveal that Hurricanes Irene 
and Sandy were not one-off anomalous events, but rather part, 
unfortunately, of a continuing and troubling trend.
    We cannot retreat. Instead, we must embrace the notion that 
we can minimize disaster risks through preparedness and 
mitigation efforts as long as they're backed by financial 
resources and political will. Just like our Nation cannot 
abandon the strategic Mississippi River Delta, which transports 
more tonnage than any port system in the Western Hemisphere and 
produces one-fourth of the country's energy supply, we refuse 
to abandon the world's most important financial and commercial 
center.
    Instead, we must improve the resiliency of our communities' 
environment and essential services and vulnerable populations 
with smart planning and well-designed recovery and rebuilding 
tools. We have the ability to reduce the consequences of severe 
weather by mitigating flood risks through smarter land use 
guidelines, building codes, and flood protection improvements.
    The State of New York has requested $9 billion for 
mitigation measures from the administration. The State of New 
Jersey is seeking another $7 billion for the same purpose. I 
commend Governor Cuomo and Governor Christie for including 
strategic mitigation needs in their funding requests. Both of 
these leaders have demonstrated incredible compassion and 
concern for the people whom they represent and have been highly 
effective in their leadership since the disaster began. And I 
may also include Mayor Bloomberg, Mayor Cory Booker, and many 
other local officials that stepped up and did the job they were 
elected to do.
    I look forward to hearing from our witnesses today, my 
colleagues, who I have the deepest respect for and have been 
engaged in many conversations with, as I am all too familiar 
with what they are going through right now. I'm looking forward 
to their suggestions.
    So our first panel includes Senators from the affected 
areas. In the interest of time and due to the number of 
participants, I've asked each one to limit their statement to 4 
minutes, but their entire written testimony will be included in 
the record. We will take any documents or papers that they want 
to submit to help us build the most robust response that we 
can.
    Before I introduce the panel, I want to recognize, of 
course, my ranking member, Senator Coats. I want to then turn 
to Senator Cochran, vice chair of the overall Committee, and 
then recognize Senator Barbara Mikulski, a longstanding member 
of this Committee, and we're happy to have her back on the dais 
this morning; and then Senator Lautenberg whenever he shows up 
will also be recognized.


              referenced materials and prepared statements


    Senator Coats, thank you for your help and leadership.
    Senator Rockefeller submitted a statement to be entered 
into the record.
    [The referenced letters to the President and the statements 
of Senator Landrieu and Senator Rockefeller follow:]
Letters Submitted to President Barack Obama by Senator Mary L. Landrieu




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



             Prepared Statement of Senator Mary L. Landrieu
    We are here today to evaluate response and recovery efforts in the 
aftermath of Hurricane Sandy, which struck the northeastern United 
States on October 29 as the largest sized storm system in United States 
history. Hurricane Sandy claimed the lives of more than 130 Americans, 
destroying over 340,000 homes and 200,000 businesses, and leaving more 
than 8.5 million families without power, heat, or running water. The 
scale of this disaster has created significant housing and 
transportation challenges, and successful recovery will require 
sustained effort at the Federal, State and local level, from 
government, private businesses, and voluntary organizations.
    By in large, the Federal Government's response to Hurricane Sandy 
has been robust. Over 490,000 people have registered for temporary 
housing and other individual assistance, FEMA has provided over 14 
million meals, over 16 million liters of water, over 1.6 million 
blankets and over 100,000 tarps. DOD delivered over 9.3 million gallons 
of gasoline to 300 gas stations. Over 270 million gallons of salt water 
were pumped out of transit tunnels. At the peak of the response, 17,000 
Federal personnel were involved and over 11,000 national guardsmen. I 
commend the thousands of first responders, volunteers, and neighbors 
who have worked tirelessly to help those in need.
    The President and numerous administration officials have been on 
the ground surveying the damage and meeting with State and local 
leaders. The Federal Government has provided over $2.4 billion in 
relief through FEMA, SBA, the Department of Agriculture, the Department 
of Transportation, the Department of Health and Human Services, and 
other agencies.
    Nine States have been declared disaster areas as a result of 
Hurricane Sandy, and their citizens will require significant Federal 
resources to recover. That is why I have called upon Congress to enact 
supplemental disaster assistance legislation before the 112th Congress 
adjourns in January. Congress should not allow itself to get tied up in 
knots by engaging in a political debate over offsets. Congress did not 
require offsets after 9/11 and we did not do so after Hurricanes 
Katrina and Rita. In responding to a catastrophic disaster such as 
Hurricane Sandy, Congress should focus on helping those in need and 
rebuilding communities, not on politics.
    It is absolutely critical that the administration come forward with 
its detailed requests this week so that Congress can evaluate those 
requests and act promptly.
    I know that many of my colleagues who are present here today agree 
with the urgent need to advance a supplemental, and I look forward to 
hearing their suggestions for specific programs and authorities that 
can be utilized to address unmet recovery needs.
    I sent two letters to the President in the past week related to 
mitigation and recovery efforts associated with Hurricane Sandy and 
other disasters in this Nation. A copy of each letter will be included 
in the official record for this hearing. The first included a list of 
recovery tools that gulf coast leaders found effective in the aftermath 
of Hurricanes Katrina and Rita, and which will be valuable to 
communities in the northeast as they work to recover from Sandy's 
effects. Many of our existing laws simply do not meet the needs of the 
communities impacted by catastrophic disasters. The Stafford Act, 
various ad hoc Community Development Block Grant authorities, and other 
laws present needless bureaucratic hurdles to disaster victims in their 
time of need. We learned that lesson painfully after Hurricanes Katrina 
and Rita. Unfortunately, the legislative solutions that I fought for 
were enacted in a form that limited the solutions to just those 
disasters. We should not repeat history.
    I have spoken with Senator Lieberman and Senator Collins about the 
need to enact a handful of key reforms that will accelerate the speed 
and efficiency of recovery efforts in the northeast. We need to work 
together to finalize a consensus package of reforms. A few elements of 
the policy proposals include:
  --Flexible Disaster Recovery Grants for HUD to address housing, 
        infrastructure, economic revitalization, community planning, 
        and other unmet needs.
  --Streamlining FEMA Public Assistance by:
    --Advancing funding on the basis of reliable estimates for damaged 
            facilities and infrastructure;
    --Eliminating the arbitrary penalty on alternate projects so 
            communities can rebuild flexibly and strategically as 
            opposed to restoring every facility to its pre-disaster 
            condition in the exact same location;
    --Authorizing global settlements for facilities that serve the same 
            function, so communities can restore schools, medical 
            clinics, police and fire stations, and water treatment 
            facilities in a comprehensive and strategic manner;
    --Establishing arbitration procedures to resolve disputes over 
            project eligibility and cost that may otherwise drag on for 
            years;
  --Allowing families to use FEMA Individual Assistance funds for 
        disaster-related child care expenses;
  --Cost-effective temporary housing alternatives, like repairing 
        rental units, that may address housing needs more quickly and 
        cheaply than mobile homes and other traditional solutions; and
  --Adjusting the $5 million cap on FEMA's Community Disaster Loans, 
        which renders this program essentially useless to major cities 
        facing reduced tax revenues and increased operating costs in 
        the aftermath of the hurricane.
    My second letter to the President called for at least 5 percent of 
supplemental disaster funding to go toward Corps of Engineers 
construction projects that will buy down taxpayers' exposure to future 
flood risks. Our Government continually under-invests in flood 
protection infrastructure, and U.S. communities and taxpayers incur 
exorbitant disaster assistance costs as a result. The National 
Institute of Building Sciences issued a congressionally chartered 
report that determined taxpayers save $4 for every $1 invested in 
mitigation measures. And yet the Corps of Engineers' new construction 
budget for the entire Nation is only $1.6 billion, despite a project 
backlog of more than $40 billion.
    Hurricane Irene tore across the same region of the country last 
year, and as winter sets in, the northeast faces continued threats from 
nor'easters and additional extreme weather events. This reflects a 
trend of more frequent and costlier disasters in this country. Last 
year alone, 48 States experienced a Presidentially Declared Disaster, 
14 of which exceeded $1 billion in damage, the most in recorded 
history. Rising sea levels, more active hurricane seasons, and 
increased development along our Nation's coasts clearly reveal that 
Hurricane Irene and Hurricane Sandy were not one-off, anomalous events, 
but rather part of a continuing trend.
    We cannot retreat. Instead, we must embrace the notion that we can 
minimize disaster risks through preparedness and mitigation efforts, as 
long as they're backed by financial resources and political will. Just 
as our Nation cannot abandon the strategic Mississippi River Delta, 
which transports more tonnage than any port system in the western 
hemisphere, and produces one-fourth of the country's energy supply, we 
refuse to abandon the world's most important financial and commercial 
center. Instead, we must improve the resiliency of our communities, 
environment, essential services, and vulnerable populations.
    We have the ability to reduce the consequences of severe weather by 
mitigating flood risk through smarter land use guidelines, building 
codes and design, and flood protection improvements. The State of New 
York has requested $9 billion for mitigation measures from the 
administration, and the State of New Jersey is seeking another $7 
billion for the same purpose. I commend Governor Cuomo and Governor 
Christie for including strategic mitigation needs in their funding 
requests. Both of these gentlemen have demonstrated incredible 
compassion and concern for the people whom they represent and highly 
effective leadership since this disaster began.
    I look forward to hearing from the witnesses here today about 
Hurricane Sandy's impacts, successes and failures during the response 
phase, and the nature and extent of recovery challenges before us.
    Our first panel includes Senators from the affected States, who 
will discuss the hurricane's impact upon their constituents and their 
assessment of response and recovery efforts. Our second panel includes, 
Shaun Donovan, Secretary of Housing and Urban Development, who the 
President has designated to coordinate long-term recovery, and Craig 
Fugate, Administrator of the Federal Emergency Management Agency.
    In the interest of time and due to the number of participants, the 
subcommittee requests that witnesses limit their statements to 4 
minutes or less. Written testimony will be included in its entirety in 
the hearing record. There will not be a question round after the first 
panel, however, each subcommittee member will have 5 minutes to ask 
questions of our administration witnesses following the second panel's 
testimony. I would now like to turn to my ranking member, Senator 
Coats, and then my vice chair, Senator Lautenberg, for any opening 
remarks they may wish to make before introducing our first panel.
                                 ______
                                 
          Prepared Statement of Senator John D. Rockefeller IV
    Chairman Landrieu and Ranking Member Coats, thank you for holding 
this extremely important hearing and for allowing me to submit this 
statement for the record. The devastating power of Hurricane Sandy 
impacted of millions of people throughout the eastern United States, 
destroying homes, businesses, transportation systems, and taking the 
lives of a number of Americans.
    While the Nation's attention was understandably focused on New York 
and New Jersey, far from the glare of the national spotlight, West 
Virginia was buried in an avalanche of heavy, wet snow. Roofs of homes 
and businesses collapsed. Roads were impassable. More than 200,000 
people lost electricity and were left huddling in the dark and the 
cold. And most tragically, six West Virginians lost their lives.
    More than a month later, the effects of the storm are still 
evident; trees along rural highways in our eastern mountains look like 
snapped toothpicks. In some spots, these narrow country roads are still 
hard to cross, with broken limbs just feet away from the roadway.
    As always, West Virginians came together and took care of one 
another. This amazing sense of community and selflessness is deeply 
ingrained in our State's people, and is often evident at the most 
trying times. Natural disasters are such times, and unfortunately, West 
Virginians are no strangers to the destruction that natural disasters 
can cause.
    Only months before the freezing conditions brought by Hurricane 
Sandy, West Virginia was hit by a massive ``Derecho'' storm that ripped 
through the State, causing extensive damage in 53 of our 55 counties 
and leaving hundreds of thousands without power--this time in the 
sweltering heat. And we shouldn't forget that, back in March, we had 
terrible flooding in North Central West Virginia and a high-wind 
disaster in southern West Virginia.
    Indeed, in 2012 alone, West Virginia suffered multiple severe 
natural disasters including flooding, tornadoes, straight line winds, 
landslides, and Hurricane Sandy. As a result, the President issued more 
major disaster declarations and emergency declarations in West Virginia 
than in any other State in the Nation. These disasters caused 
incalculable financial, emotional, and physical harm to individuals and 
businesses throughout the State, but especially impacted the southern 
coalfields and other mountainous areas where the natural landscape 
leaves the residents vulnerable to flooding, snow storms, and other 
disasters.
    Among the counties hardest hit by these storms are those that rely 
heavily on employment in the coal industry. The southern part of the 
State--with more than 14,000 coal miners alone--accounts for 19 percent 
of the Nation's coal mining employment, and the State as a whole has 
more miners than any other State. As these communities continue to 
rebuild, any disaster relief package established by Congress should 
seek to prevent additional harm from occurring.
    This is why I so greatly appreciate the importance of this 
hearing--because West Virginians know what is at stake when we talk 
about the need to better develop and refine our Nation's responses to 
these disasters. That is one of the reasons I authored legislation to 
build a nationwide wireless network designed to help first responders 
communicate during emergencies. We have come a long way in our disaster 
relief capabilities, but there is much more that needs to be done.
    West Virginians remain tough and resilient as always, and many have 
started to rebuild, but this year in particular our State has dealt 
with outsized hardship from so many natural disasters, and resources 
are overwhelmed. West Virginians need support, as do so many others, 
which is why the administration and Congress must make sure that a 
disaster relief package fully takes into account every impacted State's 
unique recovery needs. At my urging, the State of West Virginia will be 
submitting its disaster recovery funding needs to the Office of 
Management and Budget shortly. While it may not be the magnitude of the 
needs from other impacted States, I want the administration to take 
into account the full spectrum of Hurricane Sandy and other disaster 
recovery needs--big and small--as it formulates an emergency 
supplemental package.
    Supplemental recovery funding is critical, and I hope that it will 
transcend the politics that have too often left this institution 
gridlocked. Natural disasters can happen anywhere, in any State, and 
when they do, we must respond like West Virginians and communities 
across America and come together to find solutions.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Madam Chairman, thank you. I'll be brief 
because we want to hear from our colleagues and I know they 
have busy schedules.
    First of all, let me just say that all of us here on the 
panel express our sympathy to you and your constituents, the 
loss of life, those injured, those homeless, those suffering 
from this historic storm. Earlier this year, we had an incident 
in Indiana, a devastating tornado, but it doesn't begin to 
compare with the depth and the scope of what our Government now 
has to deal with relative to the impact of this particular 
storm. So we understand a little bit of what you're going 
through. I know the chairman also has experienced storms--
something of this magnitude.
    While many of us are grateful for the response of FEMA, we 
must continue our efforts to try to determine how we mitigate 
damage for the future. Given our current budget situation, 
there just simply isn't enough money to go around to fund all 
the essential functions of the Federal Government. So we need 
to be smart in terms of how we apply current aid, but also I 
think learn lessons from these situations so that we can take 
appropriate mitigation procedures for the future.
    I noticed yesterday in the New York Times there was an 
interesting article looking at one particular city in Senator 
Schumer's State, Long Beach. My daughter actually lived there 
right after college, just married, working on a graduate 
program at St. John's, and her husband working was in Queens. 
The home they had is no longer there.
    These coastal towns, we need to find ways to protect them--
with potential rising sea levels, more serious storms hitting 
our continent, we need to look at ways to mitigate these risks. 
We don't want to be back here 2 or 3 years from now saying 
we've got to do this all over again.
    So I look forward to hearing from our members in that 
regard, but also Administrator Fugate and Secretary Donovan.
    Let me just say that the issue of how we go forward and how 
we balance all this out with the benefit-cost analysis and the 
caps and so forth is something that we really are going to have 
to work through. I know the chairman has suggested some options 
here. A lot of this is all caught up in the negotiations going 
on, the sequester, and the impact of the fiscal cliff. I'm 
anxious to hear from the second panel as to, if this sequester 
is applied, what it does in terms of their ability to provide 
the necessary support.
    So with that, Madam Chairman, I'll just try to move us 
forward here by stopping talking.
    Senator Landrieu. Thank you, Senator, for that opening 
statement.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chair, thank you. I'm pleased to 
join you and Senator Coats to welcome this distinguished panel 
of witnesses and the Senators from the areas that have been 
affected by these very serious events who are here to tell us 
what we need to know about the practical consequences of these 
storms. I also look forward to hearing from FEMA Administrator 
Craig Fugate and Housing and Urban Development (HUD) Secretary 
Shaun Donovan to better understand the challenges related to 
recovering from Hurricane Sandy. Mississippians understand all 
too well the important roles that FEMA and HUD play in aiding 
with disaster recovery. As you know, my State of Mississippi 
has experienced more than its fair share of disasters over the 
past decade, most notably Hurricane Katrina in 2005. I know the 
citizens of my State have kept those affected by Hurricane 
Sandy in their thoughts and prayers. We will forever be 
grateful to people from all across America who helped us 
rebuild and recover after Hurricane Katrina, and I know 
Mississippians have been actively involved in providing support 
to the States affected by Hurricane Sandy.
    I am pleased to work with you, Madam Chairman, the other 
members of this subcommittee, and the Senators here before us 
today to examine the response that has been achieved thus far 
and to assess what actions are still necessary. I anticipate 
that any upcoming request for supplemental appropriations from 
the President will inform this subcommittee's judgment about 
the funding that may be necessary for recovery. We are eager to 
hear from all of the witnesses before us and I join you in 
welcoming all of them today.
    Thank you.
               Prepared Statement of Senator Thad Cochran
    Madam Chair, thank you. I'm pleased to join you and Senator Coats 
to welcome this distinguished panel of witnesses and the Senators from 
the areas that have been affected by these very serious events who are 
here to tell us what we need to know about the practical consequences 
of these storms. I also look forward to hearing from FEMA Administrator 
Craig Fugate and Housing and Urban Development Secretary Shaun Donovan 
to better understand the challenges related to recovering from 
Hurricane Sandy. Mississippians understand all too well the important 
roles that FEMA and HUD play in aiding with disaster recovery. As you 
know, my State of Mississippi has experienced more than its fair share 
of disasters over the past decade, most notably Hurricane Katrina in 
2005. I know the citizens of my State have kept those affected by 
Hurricane Sandy in their thoughts and prayers. We will forever be 
grateful to people from all across America who helped us rebuild and 
recover after Hurricane Katrina, and I know Mississippians have been 
actively involved in providing support to the States affected by 
Hurricane Sandy.
    I am pleased to work with you, Madam Chairman, the other members of 
this Committee, and the Senators here before us today to examine the 
response that has been achieved thus far and to assess what actions are 
still necessary. I anticipate that any upcoming request for 
supplemental appropriations from the President will inform this 
Committee's judgment about the funding that may be necessary for 
recovery. We are eager to hear from all of the witnesses before us and 
I join you in welcoming all of them today.

    Senator Landrieu. Thank you.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Madam Chairman, I can't thank you and the 
ranking member, Senator Coats, for having this hearing. I think 
at this time as we go into the holiday season of Hanukkah and 
Christmas and the season of light, there isn't a lot of light 
in a lot of our communities. But we coastal Senators and those 
who'd like to be coastal Senators, have a coastal area, really, 
really appreciate this.
    Madam Chair, it's a sad day in Maryland, and Senator Cardin 
will be speaking, but we're here also to speak for the efforts 
of Governor O'Malley and the people of Maryland. We've got one 
really sad day today. Maryland woke up in the lower shore to 
this headline: ``U.S. Denies Aid to Maryland Storm Victims.'' 
This is the picture of the face of Maryland during the storm. I 
won't show you the picture of the face of the lower shore this 
morning.
    You've been down on the shore. You are a frequent and most 
welcome visitor. You know that shore. You know the people. You 
know how hardworking they are. You know how patriotic they are 
and you know the demographics. When you talk about rural people 
whose incomes depend on either commercial fishing or on 
agriculture, they are rich in pride, patriotism, and 
individualism, but they're often very cash-poor, and that's 
what's happened to us.
    We in Maryland have some of the most prosperous counties in 
America, but we also have some of the most poor, and that's who 
got hit by this storm. Somerset County is a little county 
surrounded by three sides of water: the Chesapeake Bay, a 
creek, and also the Atlantic Ocean. People love to come down 
from National Geographic to take pictures about how quaint and 
lovely and charming we are. They want to hear the songs. Well, 
right now we're singing the blues and we're singing them loud 
and we're singing them clear and we're singing them here.

                          INVEST IN MITIGATION

    So we have all kinds of criteria. We love criteria, but I 
will tell you, the Eastern Shore doesn't like regulations and 
what they're worried about is that the very country that they 
serve, the very taxes that they pay, the very country where 
they send their sons and daughters to fight--they're the 2 
percent, not the top 2 percent; they're the 2 percent that go 
to war and fight for America. Now they want Cardin and Mikulski 
to fight for them and they want this country to take a look at 
their rules and regulations and to see how we can get them help 
over this very troubled time.
    So, Madam Chair, I'll go into the data and statistics when 
Mr. Fugate comes. The President said he would cut through red 
tape. We want him to do it and we want to work with you to do a 
supplemental that would also include Maryland.
    Madam Chair, I thank you and the rest of the panel.
    Senator Landrieu. Thank you, Senator Mikulski, for your 
passionate and effective advocacy on behalf of the people of 
Maryland.
    Senator Cardin, if you want to join the panel you're 
welcome to. We'll pull up a chair for you.
    We're going to go in seniority order, which is the custom 
of the Senate. I think the most senior member would be the 
senior Senator from New York, Senator Schumer--Senator 
Lieberman. I'm sorry, Senator Lieberman.

                STATEMENT OF SENATOR JOSEPH I. LIEBERMAN

    Senator Lieberman. Well, I may be more senior, but he's so 
much more powerful.
    You sure you don't want to go first?
    Senator Landrieu. Senator Lieberman. Excuse me.
    Senator Lieberman. I appreciate it. Thanks, Chairman 
Landrieu and Ranking Member Coats, for holding this hearing and 
giving those of us who represent States and people hard-hit by 
Hurricane Sandy a chance to describe our States' needs in the 
supplemental appropriations bill considered now by this 
subcommittee to enable us to recover.
    I want to say, Chairman Landrieu, that honestly I can't 
think of a better person to lead this effort than you. 
Obviously, you have been schooled, unfortunately, in the pain 
of being hit by Hurricane Katrina. But beyond that and that 
understanding and empathy you bring, you've really become the 
leader in the Senate in the whole area of disaster recovery and 
mitigation, and I appreciate that very much and am very glad 
that you're in the position you are.
    Hurricane Sandy, talking about Hurricane Katrina, by the 
estimates I've seen is the second costliest storm in American 
history. It was that serious, and it calls on us again to come 
together as we have after every other natural disaster in the 
country, wherever it was, to help our neighbors in the best 
American values sense, just to pick up what Senator Mikulski 
said. I'm confident under the leadership of this subcommittee 
we will do that, and we will do it, as you said, without 
requiring offsets, which has been the norm in past times.
    It's obvious that the people of New York and New Jersey 
suffered more than the people of Connecticut from Hurricane 
Sandy. I know you'll hear about that from their 
representatives. But I'd say two things. One is we did suffer 
in Connecticut.
    This second is we are part of a critically important 
economic region, critically important for the country certainly 
in terms of the fiscal strength of the country, but much more. 
Part of what you hope you'll keep in mind is how to help us 
revitalize this center of economic strength which really 
benefits the entire country.
    Going to Connecticut, we suffered an estimated $600 million 
in damage as well. It's evidenced by the photos up here. But 
what's maybe most interesting is the photo on the left, which 
is a house in Danbury. Now, most of you assume that the damage 
occurred on the coast. Danbury's up in the northwest part of 
the State, quite far from the water. But there was tremendous--
there were tremendous winds during Hurricane Sandy and it 
knocked down a tree, which devastated this house. It also 
knocked out a lot of power in these areas.
    The other photos to the right there is Fairfield by the 
beach. Water came way in, as you can see. Bottom left, you've 
got a house in Fairfield literally floating down a flooded 
creek. And then to the right, in Bridgeport, just a street 
devastated by water damage.
    All of this for us is cumulative, which is to say that it's 
on top of the destruction caused by two other events in the 
last year, Hurricane Irene in August 2011 and then by Winter 
Storm Alfred in October 2011. The total cost of damage from 
these three storms over the last year is almost $2 billion, 
which is a very significant amount for a small State like ours, 
which incidentally has its own budget shortfall right now.
    Madam Chairman, as you referenced, we seem to be entering 
an age of increasingly violent storms, so that I think we've 
really got to think carefully about whether and how to rebuild 
in locations we know are vulnerable and likely to be hit again. 
That means that as we go forward we've got to have some vision 
and think about how we replace critical infrastructure.
    For instance, during each of the three storms in 
Connecticut in the past year we've been most seriously impacted 
in many ways by long-term power outages as a result of our 
aging electrical distribution system. Therefore, I hope we're 
going to use this opportunity to put some power lines 
underground, install microgrids to allow critical 
infrastructure to retain power no matter the weather event, and 
move major substations away from the shore, where most of them 
are.
    Other mitigation projects that would protect Connecticut 
from the worst impacts of severe storms include flood 
protection, road improvements, new or strengthened seawalls, 
and sewage treatment plant hardening or relocation. The 
estimated cost for these and similar projects that will enhance 
the natural disaster defenses of Connecticut's cities, towns, 
and infrastructure are estimated now by our Governor's office, 
Governor Dan Malloy, at $3.2 billion.
    The failure to adequately fund mitigation and resilient 
efforts I think will only lead to greater Federal spending in 
the future as extreme weather events, including climate change, 
continues to increase sea levels, warm oceans, and lead to more 
devastating storms, thus more damage.
    Finally, very briefly, I want to urge that the supplemental 
be written in a way to include Connecticut in all funding 
sources. This has not always been the case. Even though the 
State was severely impacted last year with Tropical Storm 
Irene, the executive branch chose to deny us the opportunity to 
at least apply for some proportionate share of that funding, 
particularly under the CDBG grant program. We ask that you 
write this in a way that at least allows impacted States to 
have eligibility to apply.
    Given that at this early stage of recovery more people in 
Connecticut have registered for FEMA assistance than either of 
the previous storms, it would really be unfair to leave 
Connecticut out of eligibility altogether.
    So I thank my colleagues very much. I thank Senator Schumer 
for allowing me to go first, and I look forward to working with 
you as we respond once again as neighbors to our neighbors' 
suffering and make them as whole as we possibly can.
    Thank you.
    Senator Landrieu. Thank you.
    Senator Schumer, you're next.
    Is there a timeframe, Jack? Senator?
    Senator Schumer. He's senior to me as well. I am senior to 
Carper and Cardin.
    Senator Landrieu. I'm sorry.
    Chuck, I don't know why I think you've been around here the 
longest. It may be because you're the loudest, maybe because 
you're the loudest. Do you think that might be it?
    Senator Schumer. My ancient looks.
    Senator Landrieu. No, that is not it.
    Senator Schumer. Compared to many of these young fellows 
over here.
    Senator Landrieu. Senator Reed, I'm sorry. Go right ahead.
    Senator Reed. I would defer to Senator Schumer because his 
State suffered such grievous damage along with New Jersey.
    Senator Landrieu. Senator Schumer.

                STATEMENT OF SENATOR CHARLES E. SCHUMER

    Senator Schumer. Thank you. I thank you and I thank my 
colleagues and Senator Reed for his always present courtesy. My 
colleagues here, we're all joined together in this disaster.
    Madam Chair, I just want to thank you for being such a 
strong leader on this. You called myself, Senator Gillibrand, 
Senator Lautenberg, and Senator Menendez the day after the 
storm, offered your guidance because of what your area has gone 
through; and it's been invaluable to us, and your leadership as 
well.
    I want to thank Ranking Member Coats as well. He has been 
an open ear and a very sympathetic ear to us in our time of 
tragedy and need. Senator Cochran has been at all of our 
meetings and very supportive and very helpful, and we thank 
you. And it's great to have an ally in Senator Mikulski. While 
Maryland wasn't as damaged as New York or New Jersey, she will 
be a strong fighter for these things, as she has been over the 
years.
    I was very pleased--we've said many things about this 
storm. I'd like to focus on something you, Madam Chair, and 
Ranking Member Coats talked about, which is mitigation, and 
Senator Lieberman alluded to it as well. The tragic storm was 
an unfortunate wakeup call for New York that much more must be 
done by the Federal, State and local governments in our region 
to protect and fortify our vulnerable infrastructure from 
future storm surge activity.
    New York has no choice. We must simultaneously rebuild and 
adapt to protect against future storms. We have to do both. New 
York is a waterfront region and it's abundantly clear we're in 
the path of violent new weather realities. The modern 
infrastructure that powers and moves New York was not built to 
withstand Mother Nature's wrath in this rapidly changing 
climate.
    As I have said, Hurricane Sandy reminded us of a very stark 
reality. We can either invest in protections now or we will pay 
more later.
    So I'd like to spend a little time talking about the 
mitigation issue in two areas and giving FEMA and localities 
the flexibility to mitigate against future disasters so we can 
save taxpayer money. First, the electric grid. On Long Island, 
our public power agency, Long Island Power Authority, suffered 
unprecedented damage to an unprotected system--4,500 poles, 400 
miles of electric line, and 50 out of 185 substations were 
victims of Hurricane Sandy. One million people were without 
power at the beginning of the storm and for over 2 weeks.
    The country watched as an inept and unprepared utility 
struggled to even communicate, let alone restore power to its 
customers. The Long Island Power Authority (LIPA) didn't do 
enough over the years to harden the system or flood-proof 
substations, like Senator Lieberman's, near the water. Nor did 
it invest in modern smart grid technology, the type of system 
that allows you to use computers and sensors to respond to 
outages, learn where the damage is, and communicate with 
customers. The lack of investment, leadership, and foresight by 
LIPA is now costing us big time.
    Now, it doesn't give me pleasure to report to this 
subcommittee that LIPA will be submitting an estimated $800 
million reimbursement bill to FEMA for this storm. It would be 
penny wise and pound foolish to give LIPA $800 million without 
helping harden and modernize an electric grid that will stand 
up to the next storm. So I've asked Administrator Fugate and 
Secretary Chu to allow us to use the authority under section 
406 of the Stafford Act to incorporate a significant rate 
stabilization and mitigation plan into any reimbursement they 
issue to LIPA. We don't trust LIPA to spend the money on its 
own, to be honest with you.
    It's imperative that this process start now with the full 
cooperation of the Federal Government. It's my understanding 
that this week New York State began discussing with FEMA a 
systemwide mitigation proposal where the authority would submit 
a large plan to harden the system as opposed to individual work 
sheets, and I would encourage the subcommittee to work with us 
on this.
    Just one more point on subways. Hurricane Sandy decimated 
our New York City subway system. It's an amazing system. Three 
and one-half million people go on and off Manhattan Island 
every single day. Despite suspending service, the Metropolitan 
Transportation Authority (MTA), the subway authority, was much 
better than LIPA. They suspended service in anticipation of 
Hurricane Sandy's arrival. They moved the rolling stock to high 
ground so none of it got damaged. They still, with all that 
foresight, sustained approximately $5 billion in damage after 
its system was inundated with storm surge.
    You've probably seen the pictures on TV of, say, the 
Southbury Subway Station totally up to the ceiling with water. 
Throughout the system, switches were corroded by the salt 
water. While the MTA tried to take precautions and put up 
temporary barriers in front of subway entrances, in many cases 
the wind, high winds, flying debris, just pushed that stuff 
away.
    The MTA estimates it will cost about $600 million to, say, 
repair the Southbury Station alone and many of the tunnels that 
connect New York and Senator Lautenberg's State of New Jersey 
were totally flooded. The subway tunnels that connected 
Manhattan to Brooklyn and Queens were totally flooded and we're 
going to need to redo these.
    So the MTA has investigated as a mitigation measure 
installing inflatable plugs and station seals at these 
vulnerable flooding points. These are serious proposals that 
the Federal Government must consider funding.
    In conclusion, there's a big challenge for FEMA and this 
Congress that lies ahead: Will FEMA and the supplemental relief 
bill that this Congress must pass provide New York and our 
sister States with the necessary mitigation funding to prevent 
these massive damages again in the next storm, or will we roll 
the dice, get away with a more bargain price now, only to see 
the taxpayer tab skyrocket after the next storm. It would be 
silly to do so. We know our public infrastructure that we will 
fix after Hurricane Sandy will be automatically eligible for 
more Federal assistance if it gets damaged again. It would be 
crazy not to protect this one-time Federal investment.

                          PREPARED STATEMENTS

    So thank you. I ask my entire statement be read in the 
record.
    And Senator Manchin, Madam Chair, couldn't come, but asked 
me to submit his entire statement for the record as well. West 
Virginia did get some damage.
    Senator Landrieu. Without objection, both statements will 
be submitted to the record.
    [The statements of Senator Schumer and Senator Mandin 
follow:]
            Prepared Statement of Senator Charles E. Schumer
    Thank you for taking the time to hold this hearing to discuss the 
damage to New York and its neighbor States from SuperStorm Sandy. I'd 
like to especially thank the chair and ranking member for agreeing to 
hold this important hearing today. These are tough times and the 
support we have received from our colleagues has been exceptional.
    As you know, this tragic storm was an unfortunate wake-up call for 
New York that much more must be done by the Federal, State and local 
governments in our region to protect and fortify our vulnerable 
infrastructure from future storm surge activity. Our State suffered, 
according to some estimates, near $100 billion worth of damage to 
public and private assets.
    Along with Governor Cuomo and the New York delegation, we are 
asking for approximately $42 billion of that total. The numbers are 
mind-blowing. Here are just a few examples:
  --Transportation: $7.3 billion;
  --Housing: $9.6 billion;
  --Utilities: $1.5 billion;
  --Hospitals: $3 billion; and
  --Government and schools: $2 billion.
    The devastation is wide and deep. In these times of national 
crisis, the Federal Government always steps up. It must do so again 
now. But this event calls for a complete re-start of how New York and 
the Federal Government think about and implement storm protection.
    New York has no choice: We must simultaneously rebuild and adapt to 
protect against future storms. We are a waterfront city and a 
waterfront State and it is abundantly clear we are in the path of 
violent new weather realities.
    The modern infrastructure that powers and moves New York was not 
built to withstand Mother Nature's wrath in this rapidly changing 
climate. As I have said, Sandy reminded us of a very stark reality: we 
can either invest in protections now--or we will pay later.
    So I'd like to spend some time today talking about an issue that I 
know the subcommittee is focused on--giving FEMA and localities the 
flexibility to mitigate against future disasters so we can save 
taxpayers money. If we spend a little extra to mitigate today, it will 
save us a lot tomorrow.
                             electric grid
    Let me start by focusing on the electric grid. On Long Island, our 
public power agency, the Long Island Power Authority, has suffered 
unprecedented damage to an unprotected system. Over 4,500 poles, 400 
miles of electric line, and 50 out of 185 substations were the victims 
of Sandy. Nearly 1 million people were without power at the beginning 
of the storm and for over 2 weeks, the country watched as inept and 
unprepared utility struggled to even communicate, let alone restore 
power, to its customers.
    LIPA didn't do enough over the years to harden the system or flood-
proof substations. Nor did it invest in modern ``smart grid'' 
technology, the type of system that allows you to use computers and 
sensors to respond to outages and communicate with customers. That lack 
of investment and leadership is now costing us big time.
    It doesn't give me any pleasure to report to you today that LIPA 
will be submitting an estimated $800 million reimbursement bill to FEMA 
for this storm. It would be penny-wise and a pound foolish to give LIPA 
$800 million without helping to harden and modernize an electric grid 
that will stand up to the next storm.
    Yesterday, I wrote Administrator Fugate and Secretary Chu a letter 
asking them to use the authority under section 406 of the Stafford Act 
to incorporate a significant rate stabilization and mitigation plan 
into any reimbursement they issue to LIPA. It is imperative that this 
process starts now and with the full cooperation with the Federal 
Government.
    I don't have to tell the subcommittee that sometimes the 
bureaucracy stands in the way of funding these important mitigation 
measures through the Public Assistance process. It is my understanding 
that this week New York State began discussing with FEMA a system-wide 
mitigation proposal where the Authority would submit a large plan to 
harden the system, as opposed to individual project worksheets.
    I would encourage the subcommittee to work with us and our Federal 
agency partners to support this approach. We must make sure that we 
provide the tools and public support in this relief package for FEMA to 
help strengthen the Long Island power grid.
                                subways
    Sandy also decimated our New York City subway system. Despite 
suspending service in anticipation of Sandy's arrival, the Metropolitan 
Transportation Authority (MTA) sustained approximately $5 billion in 
damages after its system was inundated with storm surge. Many of you 
probably saw on television a completely flooded brand new South Ferry 
subway station, a crucial transportation link that connects commuters 
and tourists in Manhattan to the Staten Island Ferry.
    While the MTA took all necessary precautions in preparation for 
Sandy, the system has never been subjected to a storm of this size or 
magnitude. To their credit, the MTA smartly put up temporary barriers 
placed in front of subway entrances for stops along the system. In many 
cases, they worked.
    But in other areas, like at the South Ferry Station, these barriers 
were knocked over by Sandy's high winds and flying debris, causing 
stations to become inundated with salt water. The MTA estimates that it 
will cost nearly $600 million to repair South Ferry Station alone and 
over a year to complete such repairs so that the stop is operable once 
more.
    Still more, the many underwater tunnels that connect New York and 
New Jersey and Manhattan to Long Island were completely flooded. The 
MTA has investigated, as a mitigation measure, installing inflatable 
plugs and station seals at these vulnerable flooding points. These are 
serious proposals that the Federal Government must consider funding. So 
there is a big challenge for FEMA and this Congress that lies ahead.
    Will FEMA and the supplemental relief bill that this Congress must 
pass, provide New York the necessary mitigation funding to prevent 
these massive damages again in the next storm? Or will we roll the dice 
and get away with a bargain price now, only to see the taxpayer tab 
skyrocket again after the next storm?
    It would be silly to do so. We know that all of the public 
infrastructure we will fix after Sandy will be automatically eligible 
for more Federal assistance if gets damaged again. It would be crazy 
not to protect this one-time Federal investment.
    I thank the chair and the subcommittee for this opportunity.
                                 ______
                                 
               Prepared Statement of Senator Joe Manchin
    Chairman Landrieu, Ranking Member Coats: On behalf of all West 
Virginians, and especially those affected by Superstorm Sandy, thank 
you for your leadership on the important topic of our Federal 
Government's response to natural disasters. I also want to thank you 
for holding today's hearing so we can discuss ongoing efforts to help 
States and individuals recover from this calamitous storm.
    As we all know, Superstorm Sandy caused severe damage in many 
States on the eastern seaboard. This storm uniquely affected West 
Virginia with not only heavy winds and rains, but also snow 
accumulation of 50 inches in the mountains of northern and western 
parts of West Virginia. Emergency responders and our National Guard 
were pushed to the limit by power outages that affected nearly a 
million of our residents, by the need to vigorously monitor water 
levels of many affected rivers, and by having to quickly establish 
emergency shelters all across the State.
    But this is only part of the story of Superstorm Sandy and West 
Virginia. Our responders also were overwhelmed by dozens of roads that 
required debris removal, the need for reconnaissance flights to 
identify downed power lines and substations damaged by fallen trees, 
and by the urgent requirement to reach individuals across the State who 
were isolated and in need of such basics as food, water, medicines, and 
shelter.
    The State of West Virginia has had its fair share of disasters in 
2012. In this year alone, the State has received four major disaster 
declarations and two emergency declarations from FEMA.
    In March of this year, our State endured seldom seen flooding, 
landslides and even a tornado, which is an extremely rare event for 
West Virginians. Counties in southern West Virginia bore the brunt of 
these storms that flooded homes and destroyed buildings, roads, and 
public and private bridges across the region. Many residents of the 
counties affected by these storms are low-income and elderly, and do 
not have personal insurance plans on which to rely.
    The summer derecho brought unseen destruction to our State. Within 
hours the storm had caused severe damage in all 55 counties. Nearly 
700,000 residents were without electricity for days in near 100-degree 
summer heat. Critical services, including 911, cell and radio towers 
and the water systems people depend on were rendered inoperative for 
days as well.
    In each of these situations over the course of 2012, FEMA has been 
a trusted and valuable partner every step of the way. Under the 
leadership of the President, FEMA has quickly responded to our needs. I 
want to publicly thank Secretary Napolitano for visiting our State as 
we responded to Sandy, and for FEMA Administrator Fugate and his staff 
for their responsiveness and coordination with my staff and that of 
Governor Tomblin and leaders of the West Virginia National Guard and 
the Division of Homeland Security and Emergency Management.
    Without these resources and their tireless efforts my State would 
not have fared as well as we did through a year of numerous and 
significant natural disasters. West Virginia still grieves the loss of 
seven of our citizens to storm-related accidents, but we are convinced 
that FEMA's assistance prevented the loss of many others.
    Moving forward, FEMA has told us that debris removal remains the 
biggest issue for our recovery. This storm has left more debris in its 
wake than any other storm on record, totaling nearly 1 million cubic 
yards. Needless to say, with that kind of impact the work to recover is 
ongoing. There is also substantial work on permanent structures that 
remains. We need FEMA's assistance to repair our roads and bridges, our 
water control facilities and other public utilities, and we must ensure 
public buildings are safe for our citizens.
    FEMA continues to respond to the concerns of my staff, and my hope 
is that they will continue to work together, along with State agencies, 
to ensure improved coordination and collaboration to improve our 
preparations for the storms that are sure to come. Finally, I would 
also use this opportunity to again stress that the President's fiscal 
year 2013 budget should contain necessary funds for all those affected 
by Superstorm Sandy to rebuild their homes, and to assist businesses 
and communities get back to normal.
    Chairman Landrieu, this concludes my statement. Again, on behalf of 
all West Virginians affected by Superstorm Sandy and the many other 
natural disasters in recent years, thank you for holding this important 
hearing.

    Senator Landrieu. We've been joined by Senator Lautenberg, 
the vice chair of our subcommittee. I'm going to ask him for 
just a short opening statement now, and of course we'll have 
questions.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. Thanks very much, Madam Chairman.
    Senator Landrieu. Thank you for your leadership, Senator 
Lautenberg.
    Senator Lautenberg. My apologies. I was detained. But I 
wanted to be here to help present the case for the funding for 
the assistance that we in New Jersey underwent during this 
terrible storm. My State is still reeling from shock. There are 
lots of people--still in the middle of the storm as far as 
their lives are concerned.
    It's terrible because not only are our seashores an 
integral part of New Jersey's culture, of New Jersey's economic 
opportunity, but people that built second homes years ago very 
often have moved to those homes and now they're their first 
homes and along the shore. And theren is no asset, as we all 
know, more valuable for most families than the home that they 
own.

                           PREPARED STATEMENT

    So, Madam Chairman, I thank you for your help and 
leadership here. I ask unanimous consent that my full statement 
be included in the record and I look forward to hearing further 
from our colleagues.
    [The statement follows:]
           Prepared Statement of Senator Frank R. Lautenberg
    Madam Chairman, thank you for calling this hearing and for your 
continued support and friendship during this difficult time for New 
Jersey. You know the devastation of a hurricane all too well, and have 
been a great leader on disaster relief and recovery. I look forward to 
working closely with you to write a supplemental appropriations bill 
that will help rebuild New Jersey so it is stronger.
    And Secretary Donovan and Administrator Fugate, I thank you for 
your incredible work thus far helping families and communities 
throughout the region get back to normal.
    Superstorm Sandy has caused unimaginable suffering. Forty people in 
New Jersey were killed, and at least 130 in the United States lost 
their lives as a result of this storm. The devastation in my State is 
almost too difficult to describe in words--but this picture of a 
destroyed home makes the force of Superstorm Sandy immediately clear.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This home in Union Beach is just one example of the devastation 
throughout New Jersey. Across the State, roughly 22,000 homes were 
destroyed--and more than 300,000 were damaged. These families lost 
belongings that had been in families for generations, rooms where they 
raised their children, and irreplaceable memorabilia.
    The storm affected virtually every aspect of society--from families 
and businesses to schools and hospitals. In total, recovery and 
mitigation costs for New Jersey and New York have been estimated at 
nearly $80 billion. That's why we need to pass a supplemental 
appropriations bill this year.
    New Jerseyans have always been ready to help when another State 
suffers from a hurricane, drought, flood, or other disaster. Now we 
need our fellow States to be there for us. And we should not just clean 
up and recover--we need to rebuild stronger than ever, and be better 
prepared for the next storm.
    Madam Chairman, we learned a lesson from this storm that you know 
all too well: when we don't invest in our infrastructure, we leave our 
communities in grave danger. The lack of investment in adequate levees 
before Hurricane Katrina led to billions of dollars in damage and many 
lives lost.
    Well, in New Jersey, beaches are our levees--they act as critical 
buffer zones that protect our communities from flooding. Up and down 
the Jersey Shore, we saw that many homes behind beaches or dunes that 
were built up or widened by the Army Corps of Engineers were still 
standing after the storm--even when nearby homes without beach projects 
were destroyed.
    In the Long Beach Island community of Holgate, which did not have 
an Army Corps project, property was destroyed or damaged. We see an 
example of that in this picture.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Compare that picture to this image of homes that were shielded by 
beach projects in Brant Beach--just a few miles away.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This picture shows how the dune was constructed so that it could 
absorb the storm's force, protecting the homes and neighborhoods behind 
it. We could have prevented damage--and saved taxpayer money--if we had 
invested in more Army Corps beach projects before the storm. That's why 
we need to provide resources for rebuilding better than before.
    We also need to repair and protect our transportation and 
electrical infrastructure. The Federal Transit Administration's new 
Emergency Relief Program and HUD's Community Development Block Grant 
program would help do just that. And as we extend support to the 
region, we must do so quickly to begin the rebuilding process.
    So Madam Chairman, Secretary Donovan, and Administrator Fugate, 
thank you again for your partnership. I look forward to our continued 
work together to help New Jersey and the whole region recover and 
rebuild.

    Senator Landrieu. Thank you very much, Senator Lautenberg. 
You've been a strong voice since the day the storm hit and I 
look forward to working with you in shaping a robust 
supplemental for the State of New Jersey and the other States 
equally devastated.
    Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Chairman Landrieu and 
Senator Coats, and all my colleagues on the subcommittee. Thank 
you for the opportunity to testify this morning about the 
impacts of Hurricane Sandy on Rhode Island as the 
Appropriations Committee considers how to deal with the 
consequences of this extraordinary disaster.

                              RHODE ISLAND

    I want to extend my sympathies to all my colleagues whose 
constituencies were affected by this storm. Despite the 
significant--and we did suffer significant damage in Rhode 
Island--we know the outcome could have been even worse for our 
State had the storm followed a slightly different track.
    We also benefited from the support and assistance of 
several Federal agencies in preparing for and responding to 
Hurricane Sandy. While he's here, I want to commend FEMA 
Administrator Craig Fugate for his assistance to Rhode Island 
and for his knowledge and his excellent participation; and also 
to Nick Russo, who is the Federal Coordinating Officer in Rhode 
Island. That team did a great job. And I'm very pleased that 
the President has appointed Secretary Shaun Donovan as the 
coordinator. He's an extraordinary public servant and I'm glad 
he's here today.
    Hurricane Sandy was the third major disaster to strike 
Rhode Island in as many years, affecting four of our five 
counties. The south coast of Washington County, which includes 
the communities of Westerly, Charlestown, South Kingstown, and 
Narragansett, was pounded over several tide cycles. Homes were 
uprooted and dunes were obliterated. Sand was driven back into 
coastal ponds, through homes and onto local roadways, exposing 
underground pipes, septic tanks, and other utilities.
    Off the coast near Block Island, a USACE Coastal and Ocean 
Data System buoy reported perhaps the largest wave of the storm 
at 47 feet. The island sustained severe road damage, as well as 
damage to its stock.
    In addition to damage covered under disaster declarations 
issued by the President under the Stafford Act, preliminary 
damage reports indicate damage of approximately $40 million to 
public infrastructure that will likely need to be covered by 
other agencies. This includes damage to harbors and channels as 
well as Federal roadways, which will require significant 
funding for USACE and DOT to repair.
    For Rhode Island, which has felt the effects of the 
economic downturn as much as any State and today ranks second, 
unfortunately, in the Nation in unemployment, recovering from 
the third major disaster in 3 years will be a significant 
challenge. This is a point emphasized by Governor Chafee, who 
recently wrote to President Obama about Rhode Island's needs 
following the storm. I would ask that a copy of his letter be 
entered into the record.
    [The referenced letter follows:]
 Letter Submitted to President Barack Obama by Governor Lincoln Chafee
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Reed. I also would join my colleagues in requesting 
that any aid offered by the subcommittee be made available, all 
categories of aid, to the State of Rhode Island to respond to 
this unprecedented crisis. Providing the State fiscal relief in 
the form of additional Federal fiscal year through disaster and 
CDBG funding, and Economic Development Administration grants, 
as well as cost-sharing flexibility for FEMA assistance, have 
been important to the State in past disasters and will be again 
for the post-Sandy recovery.
    As we move through recovery and into long-term mitigation, 
we should also be mindful of the long-term impacts and 
resiliency of our coasts and the impacts of sea level rise and 
global warming. In that vein, there are smaller scale measures 
that can be undertaken as well. In particular, we should not 
ignore the USACE's Continuing Authorities Program, the CAP 
program, as part of the response. This includes section 103 
small beach erosion, section 205 flood control, and section 206 
environmental restoration. For States and communities with 
limited resources, these small-scale projects can be enormously 
beneficial and effective, particularly after disasters.
    Before I conclude, I also want to note the need for 
continued robust funding for FEMA's regular program, including 
pre-disaster mitigation and flood mapping, which have been the 
targets of significant cuts in recent budget submissions. These 
programs are critical to supporting the smart planning that we 
can use to minimize disaster damage. I want to thank you, Madam 
Chairman and my colleagues, for your efforts to maintain the 
Federal investment in these programs over the years and hope 
that we can find ways to enhance them as we move forward.
    Again, thank you very much, Madam Chairman.
    Senator Landrieu. Thank you, Senator Reed, and thank you 
for mentioning flood mapping along the coast. It's a very 
critical issue for us to address and get right.
    Gentlemen, Senator Gillibrand has joined us and she's got 
to preside at 11 o'clock. Can I ask you if she could proceed?
    Senator Gillibrand.

               STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND

    Senator Gillibrand. I thank my colleagues for being so 
generous with your time. I really appreciate it. Senator 
Klobuchar is sitting in for me in this short interim so I can 
come in in between my presiding hours.

                                NEW YORK

    Thank you, Madam Chairwoman, for holding this hearing. I 
can't tell you how much your words of support have meant to 
Senator Schumer and I and all of our colleagues who've been 
affected by Super Storm Sandy. I'm very grateful for the very 
productive conversations we've had with Governor Cuomo, with 
the delegation, with our appropriators, along with our leaders. 
I just want to thank you for being so thoughtful and helpful in 
trying to create the best momentum possible for the recovery 
that our families need.
    Particularly I know that, as you suffered through Hurricane 
Katrina and the enormous work you had to do to begin to rebuild 
New Orleans and other surrounding areas, your advocacy during 
that time was extraordinary. I really appreciated when you said 
that you would stand by us in the way that New York stood by 
you during that difficult time. That was extremely kind.
    I also want to talk a little bit about how this storm is 
affecting our families and what kind of recovery it's actually 
taking to rebuild. Obviously, millions of people's lives have 
been affected. More than 40 New Yorkers have died and millions 
were left with significant damages to their homes, 
neighborhoods, businesses, and families.
    One story is of a man, Pedro Correa from Staten Island. 
Now, Pedro is a lifelong New Yorker. When he saw the Twin 
Towers fall, he determined that he had to protect our Nation 
and he entered the service. He went to Iraq. He's now a 
security guard at Sing Sing Prison. He and his wife are raising 
their kids on Staten Island. They have two children, ages 2 and 
6.
    Now, as the hurricane approached and the super storm hit, 
Pedro directed his family to leave the home, to seek higher 
ground, to seek safety. He stayed in the home because he had 
just remodeled it himself and he wanted to make sure he could 
protect it. But the flood waters rose, and he became so 
frightened he thought he wouldn't survive that night, and he 
called his family to say goodbye to them. As the storm waters 
rose, he was able to swim, with a broken rib, to a neighbor's 
house and he actually survived.
    Despite that harrowing time and that difficulty, he's now 
not receiving the aid he actually needs to rebuild that home. 
He's been able to file insurance claims. That was capped. It 
was capped at less than one-half of the value of his home. He 
sent in his FEMA claim. FEMA offered only $2,800.
    So you can imagine, he doesn't have any choices right now. 
His only choice actually is to declare bankruptcy if he's able 
to rebuild his home. This is a man who lived through the 
terrors of 9/11, represented our Nation in Iraq with courage 
and dignity, and now he's fighting for his own life, just to 
save his family and his home.
    These are stories that you've heard so many times, Senator, 
in your own State and in your own Committee. I just want to 
thank you for understanding how important this is and letting 
my colleagues and I all testify.
    So what we now have to do is begin to rebuild our State. 
We've been hit very hard across the Hudson Valley, across Long 
Island, all across the five boroughs. As you know, families' 
homes are destroyed and their businesses are in rubble.
    But New Yorkers are tough, just like folks from your State. 
They certainly can get knocked down, but they get back up every 
single time. I think that what we have to do is begin to focus 
on how we give them the tools they need to do this.
    Now, what we know so far, we have over 300,000 homes 
seriously damaged, more than 265,000 businesses impacted. About 
238,000 have filed their FEMA claims to date and thousands of 
New Yorkers are still homeless. We've estimated our damages are 
upwards of $32.8 billion and this was a conservative estimate. 
This was an estimate based only on the damage that had been 
reported to date. So only on the number of people who have been 
able to file those FEMA claims, who have been able to file 
their insurance claims, able to file flood insurance. These 
were very conservative numbers. So we do not believe this is 
even the extent of the damage that New York will have to repay.
    We have a couple photos that have been shown. This one here 
is Breezy Point. As you heard, with Breezy Point a whole 
neighborhood was razed by fire. There's absolutely not a house 
standing in that neighborhood. It will take enormous effort to 
get that up and running.
    This is a photo to show the power of the storm: a boat in 
the middle of someone's yard, a house destroyed, crushed 
through the lower two floors. So you can see.
    We have one of firefighters who are in lower Manhattan. You 
can see the height of the flood waters. We've talked about the 
number of tunnels that were actually flooded. The problem with 
salt water is when it gets into tunnels and gets into subway 
systems, it can destroy the electrical systems. So the 
rebuilding takes an enormous amount of investment. Many of our 
bridges and tunnels were destroyed.
    Then our last photo is just the region that I want to show 
you, to show how much land area was deeply affected. Obviously, 
the purple area is what received the height of the storm, 
received the most damage. The red areas were also significantly 
affected. But you can see how vast the storm was. It really 
crushed areas that had very high density of populations, and 
that's why the cost for rebuilding is so extraordinary.
    But I do want to thank you again for holding this hearing. 
I want to recognize how important your leadership is here, and 
I want to ask you on behalf of New Yorkers to please meet the 
needs of our ability to rebuild.
    Thank you.
    Senator Landrieu. Thank you, Senator Gillibrand.
    Senator Carper.

                 STATEMENT OF SENATOR THOMAS R. CARPER

    Senator Carper. Madam Chair, thanks so much to you, to our 
ranking member, Senator Coons, and to Senators Mikulski and 
Lautenberg, our neighbors in Delaware, and to Senator Cochran.

                                DELAWARE

    I've been sitting here thinking as I listened to our 
colleagues speak. We used to be on the other side of this 
table. We used to be sitting up where you are, because for the 
most part we have some storms from time to time, nor'easters, 
as Senator Mikulski and Senator Cardin know. We have 
nor'easters, very rarely tornadoes, very rarely. Droughts, we 
have some problems with droughts. But we're blessed for the 
most part.
    And today we've gone through maybe not as bad as some of 
what you have suffered, but for us, it's heart-wrenching. And 
we just want to say very much, thank you for being neighbors 
and treating us like--we're a Nation of neighbors. I'm happy 
that you have acknowledged that, and we just very much look 
forward to working with you.
    A big shout-out to FEMA. They're a great partner in this. A 
big shout-out to USACE. They did wonderful work and still 
continue to do that, and we're grateful for that.
    Senator Coons may be joining us later. I'm not sure. But 
for Senator Coons, Representative John Carney, our Congressman, 
and for our Governor Jack Markell, I am pleased to be here to 
speak for them and with them.
    While Delaware didn't receive the kind of devastation that 
our neighbors to the north have received, we've suffered 
widespread flooding. We've suffered severe damage to many homes 
and to many businesses. Our beaches, which provide a vital 
buffer between the ocean and our shore communities, have been 
badly depleted, leaving us vulnerable to flooding and to damage 
even from small storms and routine high tides. The roads and 
the bridges that serve as arteries for commerce, like State 
Route 1, which connects our State to Maryland, our bridges and 
roads have been damaged and washed out in many parts of our 
State and will be damaged or replaced.
    I wish I had a big photo, a large photo. Senator Mikulski, 
Senator Cardin, you know, State Route 1 in Delaware connects 
us. It's a north-south highway that runs up and down our State 
right down to Ocean City. For years we've had a big bridge 
there, a big four-lane bridge that goes over the Indian River 
Inlet. We just replaced it with a new four-lane bridge. The old 
bridge, which sits right beside it, is gone. It is just gone.
    The road approaches to that bridge are gone. It's an 
amazing thing. Just 4 or 5 months ago we were using that 
bridge. That was the major link between our State's north and 
south.
    We've experienced widespread damage to storm water systems, 
to dikes and dams throughout our State. Our Governor continues 
to work with local officials and Federal agencies to determine 
the full extent of our losses to Hurricane Sandy. Preliminary 
assessments--given what we've seen here from New York and 
Connecticut and New Jersey, this is going to sound modest, but 
preliminary assessments show that Delaware needs somewhere 
between $7.5 million to $9 million in reimbursements from FEMA 
for preparations, for response, for cleanup and repairs.
    Federal agencies in Delaware such as Fish and Wildlife 
Service and USACE are still performing their own assessments of 
the facilities that they oversee, but early assessments tell us 
that they will require tens of millions of dollars more to 
perform the necessary repairs.
    These may again seem like small numbers compared to some of 
our neighboring States, but given our already strained State 
budget, Delaware's going to need assistance through FEMA and 
other agencies to fill the funding gap. However, if an ounce of 
prevention is worth a pound of cure, and I believe that it is, 
then we must also do what we can to mitigate the effect of 
future storms like Hurricane Sandy. This is a recurring theme, 
I think, of several of our testimonies. It's especially 
important as climate change drives the sea levels to rise and 
increases the severity and frequency of coastal storms.
    For example, over the years the USACE has built a series of 
storm protection projects in Delaware, in Maryland, and up and 
down the east coast, funded by both State and Federal dollars. 
Thanks in no small part to these efforts, our robust beaches 
and our strong dune protection system, performed exceptionally 
well during the worst of Hurricane Sandy, likely sparing us 
billions of dollars of damage and saving homes and businesses 
and livelihoods along our Atlantic Ocean coastline.
    In Delaware, a relatively small investment in prevention, 
in the tens of millions of dollars, helped to protect almost 
20,000 homes in our coastal communities with a value of some $7 
billion. Investing in protection clearly paid off and we must 
find ways to support and, if possible, expand this type of 
cost-effective prevention to secure lives and property for 
years to come.
    In fact, Madam Chair, we need to look no further than your 
State for a model of how to invest in prevention and strengthen 
our coastal management efforts to better weather these 
increasingly devastating storms.
    Again, our thanks to you for letting us come today to make 
our presentations and to ask for you to do what we did, to 
treat us as neighbors, and, too, because some day the shoe will 
be on the other foot as it is for us. Thanks so much.
    Senator Landrieu. Thank you, Senator Carper. You can count 
on us to be the neighbors that you need right now.
    Senator Cardin.

                    STATEMENT OF SENATOR BEN CARDIN

    Senator Cardin. Well, Chairman Landrieu, I also want to 
join my colleagues in thanking you and Senator Coats and all 
the members of this subcommittee for your continued interest. 
You've been a real champion on the Federal Government's 
partnership and responsibility during these disasters and we 
very much appreciate that very much.

                                MARYLAND

    Maryland as a whole did better than our surrounding States, 
but there are places in Maryland that were devastated by the 
storm. So I join with Senator Mikulski in urging this 
subcommittee to do everything we can to help bring people back 
to their normal lives and protect our communities from the 
damages of these more frequent severe storms.
    Maryland suffered severe damage. We had loss of life, loss 
of property. We had high and sustained winds, over 70 miles an 
hour, hour after hour after hour after hour. We had record 
amounts of rainfall. Over nine inches fell in our State, a 
coastal State. We had storm surges, waves over seven feet. It 
was a devastating storm to parts of our Maryland.
    I want to compliment our emergency responders. They did an 
incredible job. Our Maryland Emergency Management Agency 
brought together all the resources, including the Federal 
agencies, and they worked together to save lives and to save 
property. It was an incredible effort. Our Governor, Governor 
O'Malley, provided the leadership we needed locally to our 
local governments. As a result, we did mitigate the amount of 
loss of life and damage.
    It was not just our coastal areas. In the western part of 
our State we had an unbelievable blizzard. Over 30 inches of 
heavy snow fell in the western part of our State. In one 
county, Garrett County, where only 30,000 people live, 15,000 
homes were without power. That's every home. Many of these 
properties are located in very remote places. This is 
Appalachia. It's hard to get to these areas. Heroic efforts 
were made to save people's lives and we did. But they're still 
recovering and the damages are severe.
    Senator Mikulski talked about the lower shore and I just 
want to underscore the point. We understand the collective 
damage issue, but if you live in Crisfield, Maryland, you are 
suffering as badly as any part or any community in this storm, 
with homes that are not habitable. In Crisfield 32 percent of 
the population is below the poverty level. They have homes that 
they can't live in.
    They are looking to us for help. They want us to--they 
expect the Federal Government to be a partner and we have to 
find a way to make sure that we can help them in their time of 
need. I know this subcommittee is committed to doing it. Let's 
take a look at the programs and let's make sure they work.
    I fully support your efforts. A supplemental appropriation, 
absolutely. Let's do what's necessary to provide the necessary 
funding and let's figure out a way that all communities that 
have been adversely affected are handled.
    We appreciate the emergency declaration as it relates to 
our public facilities. We have to help our private property 
owners.
    I want to just join the choir here in saying we've got to 
invest in resiliency. We have to invest in mitigation. I would 
just give you one example. The Federal Government has invested 
in Assateague Island. We have widened it, we have put 
additional sand down. Why? Because it's a buffer protecting 
from these severe storms. We had the severe storm; Ocean City 
was spared a lot of damage as a result of the investment that 
we made in Assateague Island.
    So we've got to continue to make those types of investments 
and mitigation, and I hope we will be able to take advantage of 
the opportunities that may be available now as a result of 
Hurricane Sandy to invest in mitigation, to help us. I have a 
resiliency bill that I have filed that I think would help in 
this. One thing is clear. We're going to have more and more of 
these severe storms. We have to be prepared for it. Let's help 
the people who have been damaged, the communities that have 
been damaged, and let's invest in ways that we can mitigate the 
damages in the future.
    Senator Landrieu. Thank you, Senator Cardin.
    Senator Blumenthal.

                STATEMENT OF SENATOR RICHARD BLUMENTHAL

    Senator Blumenthal. Thank you, Senator Landrieu. I want to 
join in thanking you personally for your calls, your very 
prompt and solicitous contact with me and others in our State, 
along with members of the subcommittee, for having this 
hearing, Ranking Member Coats and others.
    And I want to thank SBA, Karen Mills, Secretary Napolitano, 
Administrator Fugate. All of them have visited Connecticut to 
see firsthand the scope and scale of the extraordinary damage 
there; and Secretary Donovan for his leadership. He has been in 
contact with our Governor numerous times. The Federal 
Government has really responded promptly and decisively to this 
crisis and we are grateful to them.
    These storms have created a new normal. This storm was the 
fourth in just 19 months to devastate Connecticut, and the 
costs are cumulative, in the hundreds of millions of dollars. 
We've requested $3.2 billion through our Governor, as you heard 
from Senator Lieberman, and we strongly urge that we be 
included in the supplemental. Evidently that did not happen 
during the last supplemental, but we urge strongly that 
Connecticut be made eligible for this funding because it is so 
important.
    But long-term, the mantra has to be: Invest now or pay 
later. These investments do work, as is shown, for example, by 
the 17-foot-high hurricane barrier in Stanford that blocked an 
11-foot storm surge. It saved billions of dollars, estimated 
$25 billion. We've requested money to replace the barrier's 
pumps that had to be operated manually during the storm. An 
investment of $1 million can save $25 million.
    These numbers tell a story that is very, very powerful 
about the need for seawalls, dunes, sewer treatment plants, 
power transmission upgrades, infrastructure hardening, 
replacement of power lines, and creation of microgrids. We know 
what works. We know what we have to do and we know the 
investment will pay extraordinary dividends going forward, not 
just dividends but actually savings in the millions and 
billions of dollars.
    Let me just conclude by addressing a question that I am 
asked often, and that is: Will fiscal austerity, the fiscal 
cliff, the fiscal challenges that are so daunting at this point 
in our history, deter or impede aid to recovery and rebuilding 
in the wake of Hurricane Sandy? My answer is: We're the United 
States; we come together, whether it's Hurricane Katrina, 
tornadoes, hurricanes, floods, or earthquakes, across the 
country. We are a community and we know what has to be done to 
aid the victims, innocent victims of these storms. And we will 
come together again, demonstrating the courage and grit and 
perseverance that the real heroes of these storms have shown 
again and again and again across the country, but most recently 
in Connecticut and New York and New Jersey, people who aided 
each other, heroes among the emergency responders who risked 
their own lives and gave up looking after their own property so 
that they could come and rescue and help others. I hope that 
that is the spirit that will pervade the consideration that 
goes to the victims of this latest storm.
    Thank you very much, Madam Chairman, and thank you for 
having this hearing today.
    Senator Landrieu. Thank you, Senator Blumenthal. That's a 
perfect transition to go to our next panel. Thank you for your 
testimony.
    Would Administrator Fugate and Secretary Donovan come 
forward. I think Senator Blumenthal has asked a very important 
question and I hope some of those answers can be found today as 
we move forward with our hearing. If our courage and 
determination will simply match those of our constituents that 
were responding as the disaster was unfolding, I think we'll be 
in good stead. That's most certainly what I believe is called 
upon us to do.
    And I would say that I think this country is big enough and 
strong enough to multitask. There are many challenges before 
us. This is only one of them, and we most certainly should be 
able to move forward with the supplemental while we're dealing 
with other fiscal issues of great significance as well.
    Shall we start, Secretary Donovan, with your opening 
statement, and then Administrator Fugate? Well, I'm sorry. Did 
you prepare it in the reverse?
    Secretary Donovan. You're the boss.
    Senator Landrieu. Okay. Secretary Donovan.
STATEMENT OF HON. SHAUN DONOVAN, SECRETARY, DEPARTMENT 
            OF HOUSING AND URBAN DEVELOPMENT
    Secretary Donovan. Chairman Landrieu, Ranking Member Coats, 
and members of the subcommittee: Thank you for the opportunity 
to testify today.
    I particularly want to talk about the progress that we've 
made in responding to Hurricane Sandy, as well as the 
challenges that we face in supporting the long-term recovery of 
the region. I know you've closely followed reports of the 
storm's impact on the region. We've obviously heard about that 
today from the first witnesses. You heard about the many 
injuries and tragic loss of life, as well as the massive 
flooding, structural damage, and power outages across the 
region.
    As someone with deep roots in the region, I have been 
particularly affected by the storm's devastation as many 
friends and colleagues are still dealing with the aftermath. 
For this reason, I'm especially honored to have the opportunity 
to help with recovery and rebuilding efforts and pleased to be 
here today.
    Having made several visits to the affected areas since the 
storm hit, including trips with the President and Secretaries 
Napolitano and Sebelius, I have had the opportunity to see 
firsthand the damage and to speak with State and local 
officials and, most importantly, residents about their needs. 
My conversations serve as a constant reminder that, while this 
is a disaster of epic proportions, the suffering is on a 
personal level affecting families and communities.
    Today I'd like to briefly discuss some of the Department of 
Housing and Urban Development's (HUD's) efforts in the ongoing 
response and recovery efforts to the storm. Much of our work 
has been in support of the efforts of FEMA, which responded 
extraordinarily quickly and competently, and I want to 
congratulate Administrator Fugate on that work. I'll also touch 
upon how the recovery has been informed by our prior responses 
to other similar disasters. Senator Coats, you mentioned that 
we must learn from our experiences in other storms and you're 
exactly right. Finally, I'll address the special role the 
President had asked me to play with respect to rebuilding and 
redevelopment efforts.
    The significant work already done to assist the region has 
involved effective coordination among State, Federal, and local 
authorities. This has included HUD, FEMA, as well as the 
Departments of Homeland Security, Transportation, Energy, 
Interior, and Health and Human Services, plus the SBA, the 
USACE, State and local officials, private businesses, and 
charitable organizations.

                   HUD'S RESPONSE TO HURRICANE SANDY

    HUD personnel have been on the ground staffing FEMA 
disaster recovery centers and doing a variety of storm-related 
work, such as mobilizing special needs providers to assist 
families in shelters. We've made it a priority to provide 
immediate temporary replacement housing to displaced families, 
identifying thousands of available units in both public and 
private housing and getting that information to displaced 
individuals through FEMA's disaster recovery centers and the 
FEMA housing portal online.
    Additionally, we've provided foreclosure prevention for 
storm victims with Federal Housing Administration (FHA)-insured 
mortgages by issuing a mandatory 90-day moratorium that 
includes all the counties in the Federally Declared Disaster 
areas. More than 300,000 homeowners in the storm-affected areas 
have FHA-insured mortgages.
    HUD has also directed FHA lenders to provide storm-related 
insurance payments directly to homeowners. This will eliminate 
the problem that you and I have spoken about, Senator Landrieu, 
which occurred after Hurricanes Katrina and Rita where some 
mortgage companies used insurance payments intended to rebuild 
damaged homes for other purposes.
    Along with FEMA, we've also been working to provide direct 
assistance to those in damaged or destroyed assisted-housing. 
After the storm surge flooded basements and damaged boilers and 
electrical systems in multifamily properties owned by the New 
York City Housing Authority, for instance, HUD worked with FEMA 
and the USACE to provide replacement boilers and generators, 
allowing thousands of low-income families to remain in their 
homes.
    We're also ensuring communities have the funds to make 
infrastructure repair by providing waivers so that existing 
Federal CDBG and HOME funds can be used for disaster relief.
    The success of the efforts grew in part out of what we 
learned and created in response to Hurricanes Katrina and Rita 
and other natural disasters. In September 2009, President Obama 
charged the Departments of Housing and Urban Development and 
Homeland Security to work on how as a Nation we address 
disaster-related recovery and rebuilding challenges. We created 
a long-term disaster working group composed of more than 20 
Federal agencies and consulted closely with State and local 
governments, as well as experts and stakeholders. Out of this, 
in 2010 we published a draft of the National Disaster Recovery 
Framework, which after extensive public comment was published 
in its final version in 2011.
    By appointing me to lead the current recovery and 
rebuilding, that is the long-term part of this effort, the 
President not only is applying the National Disaster Recovery 
Framework, but also recognizes that to adequately address the 
enormous range of regional issues and geographic areas included 
a larger coordinating role across Federal agencies and State 
and local governments is necessary.
    At HUD we've developed strong relationships with these 
leaders and a unique breadth of experience in not only the 
housing, but the broader redevelopment issues as well.
    Now let me be clear. Job No. 1 is our ongoing rescue 
response to help those affected by Hurricane Sandy, including 
tens of thousands of families across the region still in homes 
without power due to damage to their homes and many others that 
don't have homes at all. We will continue to work with FEMA and 
other agencies in this regard.
    But, as the President recognized when he appointed me to 
head this current effort, we must look ahead as well and we 
must not distract the immediate responders from their jobs 
today. We want to ensure that homes that were damaged or lost 
are rebuilt, businesses are restored, and communities made 
whole. But we also want to build back stronger, smarter, safer, 
and more resiliently--a 21st century response.

                           REBUILDING SMARTER

    We can support State and local leaders in creating a long-
term recovery plan that will address housing, infrastructure 
systems, small business and local industry, health systems, 
social services, and natural cultural resources. This is a 
significant undertaking that will involve decisions large and 
small, from the kinds of design and materials we should use to 
rebuild boardwalks to whether gas stations should be generator-
capable, to how or whether to rebuild in certain areas. But by 
developing such a plan we can be forward-leaning and identify 
potential obstacles before they impede State and local efforts.
    This cannot and will not be a one-size-fits all, top-down, 
Washington knows best project. This is why we will involve 
those who know these communities best, the people who live and 
work in them. We want these communities to make their own smart 
choices when it comes to planning for disaster, choices that 
work for them and their needs over the long term. To that end, 
we'll engage States, tribes, local governments, the private 
sector, regional business, nonprofit, community, and 
philanthropic organizations, and the public.
    These decisions will and should be made by local 
communities. That is how we build truly vibrant and sustainable 
communities.
    This is not something that can be accomplished overnight 
and it will require cooperation among all the parties I 
mentioned, as well as from Congress. Indeed, one critical piece 
of this puzzle is to get a significant supplemental 
appropriation from Congress literally in the next few weeks. 
The administration will be submitting its proposal this week. 
There are thousands of families and businesses whose lives are 
on hold as they wait for this help.
    Having seen the courage, resiliency, and cooperative 
efforts of the people and communities impacted by this storm, I 
am confident that if we make it a priority we can and will 
rebuild this region stronger and smarter. I know we can count 
on your help.

                           PREPARED STATEMENT

    I thank the subcommittee again for this opportunity to 
testify today and I'd be happy to answer any of your questions 
after Administrator Fugate's testimony.
    [The statement follows:]
                Prepared Statement of Hon. Shaun Donovan
    Chairman Landrieu, Ranking Member Coats, and members of the 
subcommittee, thank you for the opportunity to testify today regarding 
response and recovery to Hurricane Sandy, including both the progress 
we have made and the challenges that we face.
    Hurricane Sandy and the nor'easter that followed have had immense 
and varied impacts in New York, New Jersey, Connecticut, West Virginia, 
Maryland, Delaware, Rhode Island, and a number of other States. Within 
the United States, the hurricane itself resulted in 121 confirmed 
fatalities, major flooding, structural damage, and power loss to over 
8.5 million homes and businesses, directly affecting more than 17 
million people. As a consequence of the combined effect of the storm, 
hundreds of thousands of residents left their homes and sought shelter 
from as far south as North Carolina, as far north as New Hampshire, and 
as far west as Indiana. Especially hard hit were New York and New 
Jersey, which are critical economic engines of our Nation. These two 
States employ 12.7 million workers, accounting for about 10 percent of 
U.S. payroll employment. They export about $90 billion in goods 
annually, accounting for about 7 percent of such exports, and 
contributed $1.4 trillion to our gross domestic product (GDP) in 2011, 
accounting for more than 11 percent of GDP. Thus, recovery and 
rebuilding is not only a State and local priority, but a crucial 
national priority.
    In addition to my concern as a citizen and as a member of this 
administration, this is personal to me. I grew up in the region. I was 
born and raised in New York and worked on housing issues there, 
including serving as Mayor Bloomberg's Commissioner of the New York 
City Department of Housing Preservation and Development. I also worked 
on housing issues for Prudential Mortgage Capital in New Jersey, and 
married a Jersey girl in New Jersey. Many of my friends have been 
directly affected by the storm's devastation. In light of my deep roots 
in the region, I am particularly concerned with the devastation that 
Sandy has caused, and especially honored to have the opportunity to 
help with recovery and rebuilding efforts.
    I have already been to the affected areas on five trips over 9 days 
since Sandy, including my trip with the President and Secretary 
Napolitano on November 15. I have seen much of the damage first hand, 
talked with State and local officials and citizens living with the 
aftermath of the storm, had discussions with Senators and 
Representatives from the area, including those who are here today, and 
have met with other Federal officials working on the recovery effort, 
including our wonderful Federal Emergency Management Administration 
(FEMA) Administrator Craig Fugate. There is a lot to do, and it has 
already begun.
    I have also talked to many who have been engaged in rescue and 
support efforts in the storm's aftermath and demonstrated extraordinary 
dedication and courage. Just as remarkable are the actions by average 
people I have spoken with--individuals who have demonstrated a 
different brand of heroism by simply reaching out to help their 
neighbors, even as they were facing their own losses. I have seen 
courage and determination that inspires me and my colleagues to work 
even harder, respond quicker, and develop more creative solutions.
    In my testimony today, I will describe HUD's participation in the 
ongoing response and focus on recovery efforts concerning the storm, as 
we have done with respect to other such disasters, in close cooperation 
with our colleagues at FEMA and other agencies. I will also discuss the 
role that the President has asked me to play with respect to Federal 
rebuilding efforts.
 hud's participation in ongoing response and focus on recovery efforts
    Unfortunately, one of the major effects of storms like Sandy is 
destruction and damage to the homes and apartments where people live, 
and the displacement of numerous families and individuals. Accordingly, 
HUD has played a significant role in response to and recovery from past 
major storms, and is doing so with respect to Sandy as well.
    Before I describe some of HUD's activities, it is important to note 
the unprecedented cooperation that is taking place among Federal, 
State, local, and tribal authorities. HUD, FEMA, and other parts of the 
Department of Homeland Security (DHS), as well as the Departments of 
Transportation and Health and Human Services plus the Small Business 
Administration and the Army Corps of Engineers, are all in place and 
working together. We are all coordinating our work with State, local, 
and tribal officials, who are doing a truly herculean job on the 
response and recovery. This unprecedented level of cooperation and 
partnership is how we will continue to speed the recovery and related 
efforts to the most affected areas.
    A key HUD priority has been providing immediate help to storm-
displaced families to find temporary replacement housing, whether they 
were displaced from private or government-assisted housing. We have 
identified thousands of housing units, including more than 12,000 
available units in HUD-assisted housing, and have been getting that 
information to displaced individuals. We also are allowing providers of 
housing for seniors the flexibility to open up vacant units to storm 
evacuees.
    HUD has also focused on help to persons living in and owners of 
HUD-assisted housing damaged or destroyed by the storm. This includes, 
for example, helping to temporarily house-displaced persons, getting 
boilers and generators to impacted developments that house low-income 
families, and waiving administrative requirements (while ensuring 
appropriate safeguards) so as to facilitate the rapid delivery of safe 
and decent housing to displaced PHA and multifamily housing residents. 
We have also increased fair market rental allowances to make it easier 
for displaced Section 8 voucher recipients to find replacement housing.
    HUD is working to encourage the private sector to help displaced 
families. Shortly after the storm, I reached out to several private 
sector organizations to encourage their involvement in this effort, and 
a number have stepped forward at least partially as a result. This 
recognizes the importance of engagement by the private sector as well 
as government in relief efforts. For example, Angie's List is providing 
free, 1-year memberships to 1,000 homeowners in the New York City tri-
State area to help with Sandy relief by making it easier for families 
to find local contractors, auto repair specialists, and healthcare 
professionals who are highly rated by other consumers. Walk Score has 
launched a Web site to support people in search of temporary housing 
after Sandy. HotelTonight recently announced a $60,000 contribution to 
the American Red Cross to support relief efforts for Sandy victims, and 
will donate 10 percent of its net revenues in New York City for the 
month of November to the Red Cross for this purpose.
    We have deployed HUD personnel to help staff FEMA Disaster Recovery 
Centers and do other storm-related work. This has included providing 
local housing resource help, program information, and other help to 
storm victims, mobilizing special needs providers from other States to 
assist families in shelters, participating on State-led Disaster 
Housing Task Forces in New York and New Jersey, and activating our 
Northeast network of field offices to communicate daily with impacted 
PHAs.
    There are more than 200,000 homeowners with FHA-insured mortgages 
in the affected areas in New York, New Jersey, and Connecticut. HUD has 
provided foreclosure protection for storm victims with FHA-insured 
mortgages through a mandatory 90-day moratorium on foreclosures.
    We are also offering assistance to storm victims who must rebuild 
or replace their homes. In particular, FHA insurance is available to 
such disaster victims who seek new mortgages, and borrowers from 
participating FHA-approved lenders are eligible for 100-percent 
financing, including closing costs. HUD is also directing banks to 
provide insurance payments they receive related to the storm directly 
to homeowners, in order to avoid the problem that occurred after 
Hurricane Katrina where some mortgage companies used some insurance 
payments that were supposed to be used to rebuild damaged homes for 
other purposes. Senator Landrieu, I know that this was a particular 
concern of yours after Hurricanes Katrina and Rita, and I am very 
pleased that we have been able to take this step. HUD is working to get 
information on these and other assistance opportunities to affected 
homeowners.
    HUD is also providing help to affected State and local governments 
and tribes. For example, we have provided waivers of existing rules so 
that existing Federal Community Development Block Grant (CDBG) and HOME 
funds can be used for disaster relief. Collectively, the CDBG and HOME 
grant programs allow grantees to meet a broad range of needs, including 
housing, economic development, infrastructure, and the provision of 
public services. We are also working with State and local governments 
and tribes to develop interim housing plans and to provide loan 
guarantees for housing rehabilitation.
   the president's announcement of secretary donovan to lead federal 
                           rebuilding efforts
    As you know, on November 15, President Obama announced that I will 
lead coordination of the Federal action relating to Hurricane Sandy 
rebuilding efforts consistent with the National Disaster Recovery 
Framework (NDRF). I am honored to have been asked to carry out that 
function, particularly in light of my deep roots in the affected areas. 
This role is different from and in addition to the role that I usually 
carry out with respect to disasters as HUD Secretary. In understanding 
my role in relation to the NDRF, it is important to understand the NDRF 
and how it was developed.
    Early in his first term, President Obama recognized that previous 
experience concerning Hurricane Katrina and other disasters highlighted 
the need for additional guidance, structure, and support to improve how 
we as a Nation address disaster-related recovery and rebuilding 
challenges. In September 2009, President Obama charged Secretary 
Napolitano and me to lead work on this effort and to establish a Long 
Term Disaster Recovery Working Group, composed of more than 20 Federal 
agencies. HUD, DHS, and the Working Group consulted closely with State 
and local governments as well as experts and stakeholders, and worked 
on improving the Nation's approach to disaster recovery and on 
developing operational guidance for recovery efforts. As a result, FEMA 
published a draft of the NDRF in 2010, carefully reviewed and 
considered more than 100 public comments, and the final version of the 
NDRF was published in September 2011.
    The NDRF addresses the short, intermediate, and long-term 
challenges of managing disaster-related recovery and rebuilding. It 
recognizes the key role of State and local governments in such efforts, 
and sets forth flexible guidelines that enable Federal disaster 
recovery and restoration managers to operate in a unified and 
collaborative manner and to cooperate effectively with State and local 
governments. The NDRF defines core recovery principles; roles and 
responsibilities of recovery coordinators and other stakeholders; 
flexible and adaptable coordinating structures to align key roles and 
responsibilities and facilitate coordination and collaboration with 
State and local governments and others; and an overall process by which 
communities can capitalize on opportunities to rebuild stronger, 
smarter, and safer after a disaster. As one of the architects of NDRF, 
I am committed to it and look forward to helping carry it out.
    My responsibilities in this role will occur in coordination with 
the NDRF and will involve cooperating closely with FEMA and the other 
agencies already involved in recovery efforts. The focus will be on 
coordinating Federal support as State and local governments identify 
priorities, design individual rebuilding plans, and over time begin 
implementation. I will be the Federal Government's primary lead on 
engaging with States, tribes, local governments, the private sector, 
regional business, nonprofit, community, and philanthropic 
organizations, and the public on long-term Hurricane Sandy rebuilding.
    Applying the principles set forth in the NDRF to our rebuilding 
efforts in response to the current crisis, we will support State and 
local governments as they create a process through which communities 
can rebuild stronger, smarter, safer, and more resiliently. This cannot 
and will not be a one-size-fits-all, top-down, Washington-knows-best 
project. That is why we will follow and work with those who know these 
communities best--the people who live and work in them. That is how 
truly vibrant and sustainable communities are rebuilt.
    A key objective will be to cut red tape for State and local 
governments and tribes as they seek Federal assistance for longer term 
projects and identify priorities for community development. These areas 
of work will include housing, infrastructure systems, small business 
and local industry, health systems, social services, and natural and 
cultural resources.
    One of my roles will be to help identify priority needs for long-
term rebuilding by working directly with State, local, and tribal 
authorities to communicate priorities to Washington. There is 
significant need, including supporting small business through disaster 
loans and other relief; rebuilding homes while creating safer, more 
responsible building codes; restoring and protecting the environment; 
and building better and stronger infrastructure. I will serve as the 
principal point of contact for the President and his senior advisors, 
and will be focused on providing effective, integrated, and fiscally 
responsible support from across the Federal Government to support 
States, local governments, tribes, the private sector, and faith-based 
and other community organizations in the rebuilding effort.
    Work on the structure and functioning of this new effort is 
proceeding rapidly. As I have mentioned, I have already met with a 
number of the most directly affected Federal, State and local 
officials, and I am looking forward to working with this subcommittee 
and other Senators and Representatives on this important effort.
    Thank you again for the opportunity to testify today. I would be 
pleased to answer any questions you may have.

    Senator Landrieu. Thank you, Secretary, for that strong 
statement.
    In my opinion the President could not have appointed a 
better person to lead the long-term recovery, and I mean that, 
not in the private sector, not in the public sector. You are 
most certainly able and obviously enthusiastic and capable. So 
thank you very much.
    Secretary Donovan. Thank you, Senator.
    Senator Landrieu. Administrator Fugate.
STATEMENT OF CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
            EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
            HOMELAND SECURITY
    Mr. Fugate. Madam Chair, Ranking Member, and Senators: You 
took some action last year that has enabled us to respond. You 
took action after Hurricane Katrina to ensure that FEMA had the 
capability to respond. Most notably, last year it was the 
decision of Congress to fully fund the Disaster Relief Fund 
(DRF) versus requiring supplementals to deal with the ongoing 
disasters. That has positioned FEMA to right now have a current 
balance in the DRF of more than $4 billion. So we are able to 
continue response not only to the impacts of Hurricane Sandy, 
but previous disasters. It is not a limiting factor.

                      NATIONAL RECOVERY FRAMEWORK

    However, as Secretary Donovan points out, it is a finite 
resource and, based upon the damages that have occurred, will 
require a supplemental in this fiscal year. Not only that. As 
Secretary Donovan points out and as you've heard from many 
Senators, much of the impacts of Hurricane Sandy go far beyond 
FEMA programs. We have major transit issues.
    There are going to be significant challenges with housing. 
As was pointed out, FEMA's assistance in housing is limited. 
The maximum benefits an individual family could receive is 
about $31,000 if they have no insurance. Obviously that's not 
going to rebuild destroyed or damaged homes that didn't have 
insurance. We can provide renters assistance for up to 18 
months. But obviously if there's no homes for people to move 
into, then that continues as a burden to the taxpayer.
    That's why we felt it was very important that we implement 
the National Recovery Framework. We are very supportive of the 
President's decision to have a Cabinet Secretary, particularly 
in Secretary Donovan, a partner to lead that because it 
recognizes, while FEMA has primary roles in repair of damages 
caused by the storm and to a certain degree helping to mitigate 
future impacts, much of the infrastructure, preexisting 
condition, and long-term housing needs are best addressed 
through existing or authorized programs that will need more 
funding.
    So again, as we look at the supplemental we are not just 
looking at the DRF and we're not just looking at HUD. We're 
looking at the whole range of Federal programs that are going 
to be required to successfully recover these communities and 
restore them to sustainable economies.
    Part of the Post-Katrina Reform Act actually laid the 
groundwork for this, Madam Chair. There would have been no 
Disaster Recovery Framework unless Congress had directed it. 
There would have been no framework for Secretary Donovan to 
begin with. So again, the legacies of Hurricane Katrina still 
echo in Hurricane Sandy's response. Tools that we did not have 
we now have.
    Another tool we did not have was the teams to send in 
before the storm hit. Previously it was oftentimes seen that 
we'd have to wait for Governors to experience total devastation 
before they would be able to ask for assistance, before the 
Federal Government could respond. Congress clarified that is 
not the case. We had incident management teams in States as far 
south as North Carolina all up to the Maine coast, as inland as 
Pennsylvania and into Vermont. That capability did not exist 
during Hurricane Katrina--again, the legacy of the work that 
Congress did, many of you as Senators having dealt with your 
own States building that capability.
    Supplies were moved ahead of time, oftentimes because we 
weren't certain where the actual damages would occur, but we 
weren't going to wait. The President's direction to us was 
again to cut through and push resources as fast as we could, in 
some cases resulting in declarations the night the storm came 
ashore, to ensure that individual assistance and other programs 
were turned on.
    We're not quite past 30 days from the storm and, to give 
you some magnitude, more than $1 billion has already been 
authorized for temporary renters assistance and repairs to 
survivors and the areas declared. We know that there are 
survivors that have not received Federal assistance. Senator, 
my commitment is to call Governor O'Malley.
    When we deal with small populations in large States, there 
are sometimes challenges that don't meet a threshold that 
overwhelms a State's capability. But I've also learned that, 
independent of that Federal disaster declaration, FEMA can and 
has done more to support the Governor by bringing resources 
together and helping to match up the needs of the citizens. I 
never look at people's homes being destroyed on the basis of 
whether it was Presidentially Declared or not. The tragedy is 
to the homeowners themselves.

                           PREPARED STATEMENT

    So my commitment, Senator, is to continue to work with the 
Governor as hard as I can if we can get the Federal assistance. 
If it's not dollars, though, it will be people, and we will 
work what the unmet needs are and work with our partner 
agencies, because I don't judge disasters by whether they're 
declared; I judge them by the needs of the State.
    Madam Chair.
    [The statement follows:]
                   Prepared Statement of Craig Fugate
                              introduction
    Good morning, Chairwoman Landrieu, Ranking Member Coats, and other 
distinguished members of the subcommittee. I am Craig Fugate, 
Administrator of the Federal Emergency Management Agency (FEMA), and I 
am grateful for the opportunity to speak here today.
    I look forward to discussing the preparations that took place 
before Hurricane Sandy made landfall, the coordinated response that 
took place during the storm and continues today, and the recovery 
efforts that are before us.
    Hurricane Sandy was the 18th named storm of the 2012 hurricane 
season, and the 10th hurricane. A high-pressure pattern over northern 
New England coupled with a strong mid-level trough moving east from the 
Midwest were the two primary features that established Sandy's eventual 
landfall trajectory into southern New Jersey on the evening of October 
29. With tropical-force winds reaching out 580 miles, Sandy was the 
second-largest Atlantic storm on record. Hurricane Sandy affected the 
east coast, from North Carolina to Maine, particularly lashing the New 
Jersey and New York coasts with heavy rain, winds, snow, and a record 
storm surge. Additionally, Sandy affected States as far inland as West 
Virginia, Ohio, and Indiana.
    In the days leading up to landfall of Hurricane Sandy, FEMA worked 
with the whole community to support our citizens and first responders 
as they prepared for the storm. By leaning forward, the agency was able 
to support a prompt, coordinated response effort while effectively 
understanding the needs of survivors and planning for future needs.
                    preparations for hurricane sandy
    FEMA's regional offices have worked closely with the State, local, 
and tribal governments across the country--including those directly in 
Sandy's path--to develop catastrophic, worst case scenario plans that 
are flexible and scalable for incidents of all magnitudes. FEMA's 
ongoing partnership with States allows coordination and collaboration 
with the whole community to plan and prepare for a range of disaster 
events.
    In the days immediately before Sandy reached the east coast, FEMA 
worked closely with the Department of Commerce's National Hurricane 
Center and based pre-landfall decisions on their predicted storm track 
and intensity, and engaged threatened communities to stage resources 
that would support response efforts that began as soon as conditions 
were safe. FEMA and the Department of Defense (DOD) established 
incident support bases (ISBs) in Westover Air Reserve Base, 
Massachusetts, and Joint Base McGuire-Dix-Lakehurst, New Jersey, to 
pre-position supplies, water, meals, cots, blankets, generators, and 
communications vehicles. In addition to the ISBs, five Federal Staging 
Areas were established in New York. To date, FEMA has shipped over 16 
million liters of water, almost 14 million meals, and over 1.5 million 
blankets to affected States.
    FEMA maintains commodities--including millions of liters of water, 
millions of meals and hundreds of thousands of blankets--strategically 
located at distribution centers throughout the United States and its 
territories, including Atlanta, Georgia, and Frederick, Maryland. The 
maintenance of these commodities helps facilitate rapid staging and 
distribution of needed items to address disaster situations.
    In preparation for the storm, FEMA deployed liaison officers and 
incident management assessment teams (IMATs) to emergency operation 
centers (EOCs) in Connecticut, the District of Columbia, Maine, 
Maryland, Massachusetts, New Jersey, New York, Pennsylvania, Rhode 
Island, Virginia, and Vermont. Federal coordinating officers (FCOs) and 
Federal Disaster Recovery Coordinators were quickly deployed as well to 
organize the FEMA and Federal response from the field.
    On Saturday, October 27, 2012, the National Response Coordination 
Center (NRCC) activated in support of first responders and the response 
mission. The NRCC, located at FEMA headquarters, provides overall 
coordination of the Federal response by bringing together Federal 
departments and agencies to assist in the preparations for and response 
to disasters.
               coordinated response and recovery efforts
    On October 28, 2012, the President authorized emergency 
declarations for Connecticut, District of Columbia, Maryland, 
Massachusetts, New Jersey, and New York. On October 29, 2012, the 
President authorized emergency declarations for Delaware, Pennsylvania, 
Rhode Island, and Virginia. Initially, these declarations authorized 
FEMA to provide direct Federal assistance for emergency protective 
measures. The President later authorized major disaster declarations 
for Connecticut, Delaware, Maryland, New Hampshire, New Jersey, New 
York, Rhode Island, Virginia, and West Virginia. These declarations 
provide declared counties and States assistance with emergency work and 
debris removal as well as access to FEMA programs, most notably 
Individual Assistance, Public Assistance, and the Hazard Mitigation 
Grant Program which provide assistance to individuals, local and State 
governments following a disaster.
    By Sunday, October 28, there were 1,032 FEMA personnel deployed in 
anticipation of Hurricane Sandy's impacts. Approximately 1 week after 
the storm, on November 6, there were 5,384 FEMA personnel deployed in 
support of Sandy. On November 6, approximately 2 weeks after Sandy's 
landfall, there were 7,770 FEMA personnel deployed to more than 11 
States and the District of Columbia in support of survivors. At the 
peak of the response efforts, more than 17,000 Federal personnel, and 
over 11,000 national guardsmen were on the ground assisting with 
response.
    FEMA and its emergency management partners facilitated the 
provision of shelters, disaster recovery centers (DRCs), points of 
distribution (PODs), and joint field offices (JFOs) in the affected 
areas. As of November 28, 78 Disaster Recovery Centers were operating 
in States affected by Sandy. Hundreds of thousands of disaster 
survivors have reached out to FEMA and its partners for aid during this 
time.
                          disaster relief fund
    FEMA was appropriated $7.1 billion for the Disaster Relief Fund 
(DRF) in fiscal year 2012--$700 million for all activities authorized 
under the Stafford Act, and $6.4 billion exclusively for major 
disasters.
    As of November 26, more than $1.93 billion has been obligated out 
of the DRF for FEMA's response and recovery efforts related to Sandy. 
There are sufficient resources in the DRF to respond to the immediate 
needs and impacts of the storm. The administration is strongly 
committed to recovery and working with Congress to help communities 
recover and rebuild.
                         individual assistance
    The Individuals and Households program, which provides assistance 
to homeowners and renters for housing and other needs, has seen a 
number of registrations as a result of Hurricane Sandy. Individual 
Assistance can include grants for temporary housing and home repairs, 
low-cost loans to cover uninsured property losses and other programs to 
help individuals and business owners recover from the effects of the 
disaster. As December 3, New York had 241,318 registrations and FEMA 
has provided over $732,942,000 in disaster aid. More than 238,353 New 
Jersey residents have applied for aid and FEMA has provided over $272 
million in disaster aid. For all Sandy declarations, there are over 
490,000 applicants, and FEMA has provided over $1 billion in disaster 
aid.
                           public assistance
    In addition to assistance for emergency protective measures and 
debris removal, Public Assistance provides funding for the repair, 
restoration, reconstruction, or replacement of infrastructure that is 
damaged or destroyed by a disaster. Eligible applicants include State, 
local, and tribal governments. Certain private nonprofit (PNP) 
organizations that provide governmental services may also receive 
assistance. Based on the needs identified by an applicant, a project 
worksheet (PW) is prepared for each project to provide funding to 
repair disaster damaged infrastructure or help pay for the emergency 
costs of responding to the incident. FEMA reviews and approves the PWs 
and obligates the Federal share of the costs (which is typically 75 
percent Federal funding) to the State. The State then disburses funds 
to local applicants.
    As of November 27, 667 requests for public assistance (RPAs) have 
been received. FEMA's Public Assistance branch is working closely with 
New York State partners to proceed with recovery and reimbursement 
efforts.
    In New Jersey, as of November 26, 890 RPAs have been submitted in 
New Jersey. In New Jersey, additionally, $29 million has been obligated 
to reimburse the New Jersey Department of Human Services for providing 
temporary housing and resources for electrical crews working to restore 
power. FEMA will continue to work closely with the State of New Jersey 
on recovery and reimbursements under the Public Assistance Program.
    FEMA is working closely with its partners to proceed to project 
formulation and project worksheet preparation to address damages caused 
by Sandy. One of the ways in which FEMA is able to provide financial 
reimbursements to local governments more quickly in order to help the 
local communities recover is through expedited payments. These are 
commonly referred to as expedited PWs. FEMA will obligate a portion of 
the Federal share of the estimated cost of work under category A 
(debris removal) and category B (emergency protective measures) as 
estimated during the preliminary damage assessment.
                    hazard mitigation grant program
    The Hazard Mitigation Grant Program (HMGP) assists in implementing 
long-term hazard mitigation measures following major disaster 
declarations. Funding is available to implement projects in accordance 
with State, tribal, and local priorities. HMGP funds may be used to 
fund projects that will reduce or eliminate the losses from future 
disasters. Eligible applicants include State, local, and tribal 
governments as well as certain nonprofit organizations. Individual 
homeowners and businesses may not apply directly to the program; 
however, a community may apply on their behalf. Following a disaster 
declaration, the State will advertise that HMGP funding is available to 
fund mitigation projects in the State. Those interested in applying to 
the HMGP should contact their local or tribal government to begin the 
application process. Local governments should contact their State 
hazard mitigation officer (SHMO). Tribal governments can contact the 
SHMO or FEMA directly.
    In both New York and New Jersey, FEMA mitigation staff has met and 
continues to work closely with the SHMOs to discuss the States' hazard 
mitigation plans, types of projects available, and how best to proceed 
within that framework.
    FEMA recognizes that mitigation is an essential component to 
national preparedness and emergency management. Working closely with 
the whole community, before, during and, after a disaster allows States 
and communities to plan and invest wisely into critical projects that 
save not only money, but most critically, lives.
                             infrastructure
    Sandy had varied effects on the infrastructure of the affected 
States. Following the storm's landfall, more than 8.5 million customers 
were without power, many roads were impassible, tunnels were flooded, 
and mass transit was significantly affected. FEMA's immediate focus was 
on the life and safety of individuals, followed by power restoration 
and community stabilization.
    As I have stated many times, FEMA is only part of the emergency 
management team. Our partners include other Federal agencies, local, 
tribal, and State governments, the private sector, voluntary agencies, 
and individuals. While we coordinate the Federal response in support of 
State, local, and tribal efforts, we are not the entire response. 
Mission assignments to our Federal partners, such as DOD, including the 
U.S. Army Corps of Engineers (USACE), the United States Coast Guard 
(USCG), Health and Human Services (HHS), Department of Energy (DOE), 
and Department of Transportation (DOT), were vital to the response and 
recovery efforts.
    The communications infrastructure was critical before, during, and 
after the storm. Prior to the storm, the Disaster Emergency 
Communications (DEC) team established communications support at the 
State EOCs along the east coast. The Mobile Emergency Response Support 
(MERS) helped establish more than 85 radio networks on FEMA's National 
Response Network (NRN) to enable mission-critical voice operability and 
interoperability for responder personnel across all levels of 
government in support of the Whole Community Framework. These networks 
spanned from Maine to West Virginia and provided radio capabilities for 
convoys, incident area operations (including search and rescue and 
other Federal responder teams), and providing communications at field 
facilities, such as interim operating facilities (IOFs) and joint field 
offices (JFOs). Following the disaster, MERS planned, executed, and 
supplied communications availability for two 1,000-person JFOs, more 
than 50 DRCs, and other critical response missions. In DRCs, the 
satellite capability not only supported the DRC intake mission, but 
provided survivors access to free wireless Internet. These 
communications efforts supported not only FEMA and its Federal 
Government partners, but also, State and local governments, first 
responders, and most importantly, the survivors.
    Transportation in the affected area was heavily impacted by damage 
to public transit and fuel shortages following Sandy. To restore public 
transit, FEMA mission assigned USACE an un-watering mission to assist 
with response efforts in areas that flooded. USACE deployed the 249th 
Engineer Battalion and other temporary emergency power assets to 
provide support to areas impacted by the storm. USACE pumped water from 
several critical infrastructure points in greater New York City and New 
Jersey. These included the Brooklyn--Battery Tunnel and the Queens--
Midtown Tunnel, along with several other tunnels and tracks. And, 
today, to support FEMA's efforts to assess the true nature of the 
damage to the region's public transit systems, the DOT's Federal 
Transit Administration has been mission assigned to put project 
management oversight contractors on the ground to assess the damage and 
to verify the assessments presented by the States of New York and New 
Jersey.
    As a result of the fuel shortages that occurred in New York and New 
Jersey, fuel distribution points for first responders were established 
so that response efforts could continue. Integral emergency management 
partners, such as the USCG and DOD, trucked and shipped gas to New York 
and New Jersey to help alleviate the shortage. To support fuel 
operations, FEMA's energy task force procured and distributed fuel to 
first responders and the public, assessed gas stations without power 
and/or fuel, and provided public information on fuel distribution. In 
support of this effort, DOD's Defense Logistics Agency provided 
approximately 9.3 million gallons of fuel to more than 300 gas stations 
and first responder fueling depots. Ultimately, the fuel made available 
was distributed at the direction and discretion of the States, based on 
their determined needs and priorities.
    We recognize that restoring power is an essential step to response 
and recovery. DOE reported peak outages of 8,511,251 customers as Sandy 
affected the east coast. Approximately a week later, on November 6, 
fewer than 1 million customers were without power. As mentioned 
earlier, FEMA is not the only Federal agency that responds to a 
disaster. At the direction of the President, a national power 
restoration working group was established on October 31 to cut through 
red tape; increase Federal, State, tribal, local, and private sector 
coordination; and restore power to people as quickly as possible. For 
example, in some 68 flights from the west coast to the east coast, 
DOD's U.S. Transportation Command airlifted approximately 225 power 
restoration vehicles, six generators, 15 trucks, five trailers, and 
more than 400 personnel to help the effort to restore power. This 
working group includes DOD, DOT, DOE, USACE, DHS's Office of 
Infrastructure Protection and the Homeland and Infrastructure Threat 
and Risk Analysis Center, and representatives from local law 
enforcement.
    FEMA continues its power restoration efforts in new and innovative 
ways, specifically through the Sheltering and Temporary Essential Power 
(STEP) program. The program repairs storm-damaged electrical meters; 
provides essential electricity, heat, and hot water; and protects 
storm-damaged residences with temporary exterior repairs.
                         housing plans/recovery
    Housing in many communities was significantly impacted due to the 
widespread effects of Sandy. FEMA convened the Hurricane Sandy 
Catastrophic Disaster Housing Task Force (task force) on November 6, 
2012, to address housing issues in support of State and field 
operations. The task force has and continues to develop guidance and 
options based on the Catastrophic Housing Annex (the Annex) dated 
August 12, 2012.
    As all disasters are local, each community and State faces 
different challenges. The State-led Disaster Housing Task Forces in New 
York and New Jersey involve a collaborative approach to addressing the 
temporary housing and long-term needs of the disaster survivors, 
including the collection of available rental resources, projecting 
housing needs and exploring other options. Task Forces include 
representatives from State, local, and voluntary agencies, and Federal 
partners including FEMA, the Department of Housing and Urban 
Development (HUD), the United States Army Corps of Engineers, the Small 
Business Administration (SBA), the Department of Veterans Affairs (VA), 
and the United States Department of Agriculture (USDA). The teams are 
working together to ensure they are making the greatest use of existing 
housing resources (such as apartments and rental units), enlisting 
voluntary agencies to make minor repairs so survivors can remain in 
their homes, and investigating other temporary housing options suitable 
for the area.
    Through the State-led Disaster Housing Task Forces, affected States 
are taking the lead to identify their local needs. The task forces in 
New York and New Jersey involve a collaborative approach to addressing 
the temporary housing and long-term needs of the disaster survivors, 
including the collection of available rental resources, projecting 
housing needs and exploring other options.
    As an example, one form of assistance requested by New York and New 
Jersey is a rapid repair program through STEP. Under this program, 
announced on November 9, 2012, the city, county, and FEMA reached out 
to residents directly to offer: Residential Electrical Meter Repairs, 
Shelter Essential Measures, and Rapid Temporary Exterior Repairs. The 
intent of STEP is to meet immediate life-sustaining needs so survivors 
can stay in or return to their homes and shelter in place until more 
permanent home repairs can be made.
    Additionally, at the request of New York and New Jersey, FEMA 
activated the Transitional Sheltering Assistance (TSA) program, which 
allows eligible survivors who are in shelters and cannot return to 
their homes due to storm-related damages to stay in participating 
hotels or motels until more suitable housing accommodations are 
available. FEMA also provides Housing Rental Assistance. If a home 
cannot be repaired easily to safe and sanitary conditions, then local 
rental resources are the preferred first choice for housing disaster 
survivors as they recover. FEMA authorized funds to increase the amount 
of rental assistance that it may provide eligible disaster survivors in 
New York and New Jersey to 125 percent. This increase will be 
implemented when a survivor is recertified for a continued need for 
temporary housing assistance. The approved increase is expected to make 
an additional 1,800 rental resources available for temporary housing of 
disaster-impacted families.
    As we move forward in the Response and Recovery missions after 
Hurricane Sandy, we will continue to work with the State-led Disaster 
Housing Task Forces to provide the forms of temporary housing 
assistance that best meet the needs of the survivors.
    On Thursday, November 15, the President announced that he has asked 
Housing and Urban Development Secretary Shaun Donovan to continue to 
work closely with Governors, mayors and local officials of New Jersey 
and New York as they begin the process of identifying redevelopment 
plans for affected communities. HUD is already an integral partner in 
the Response and Recovery of areas affected by disasters. We work 
closely with HUD to identify housing resources, provide the best 
housing support to disaster survivors, and serve as a crucial base of 
knowledge and guidance in disaster housing missions. FEMA looks forward 
to supporting Secretary Donovan in his mission and HUD's continued 
support of FEMA as we respond to and recover from Sandy.
                               conclusion
    FEMA will continue to work closely with the whole community, 
including our State, local, and tribal government partners, Secretary 
Donovan, HUD and other Federal partners as the response and recovery 
efforts move forward. FEMA recognizes that we must look to local, 
tribal, and State leaders, as well as the whole community, to ensure 
that FEMA is able to provide disaster survivors with the assistance 
they need during the road to recovery.
    Thank you Chairwoman Landrieu for providing me this opportunity to 
appear before you today to discuss preparations that took place in 
advance of Hurricane Sandy, the coordination that occurred throughout 
the storm, and the recovery efforts that remain in-progress. I look 
forward to answering questions you or other members of the subcommittee 
may have.

    Senator Landrieu. Thank you, Administrator Fugate.
    Let me be quick to thank my ranking member and my vice 
chair for their really extraordinary efforts to help last year 
as we fought for the funding necessary for FEMA to be ready to 
respond to a disaster. Of course, this was prior to Hurricane 
Sandy striking and other diasters. We did not know that another 
catastrophic storm would hit. But your testimony this morning 
indicates that that money has come in handy. In the event that 
we had not done that, I guess all future recovery efforts--or 
present recovery efforts in the Nation would have had to stop 
while whatever little money that was left in the fund would 
have been moved to Hurricane Sandy, and that probably would not 
have been enough.
    So I want to thank this subcommittee for their strong 
advocacy. While it's not of great consolation or complete 
consolation to people who have lost their homes and businesses, 
at least it is something that the money was there so that we 
could undertake this great response effort that the Nation has 
been under for the last few weeks.
    Secretary Donovan, let me ask you this, however. With that 
fund balance now being down to $4 billion and the challenge as 
you have described so eloquently this morning before you, could 
you take a minute to describe the consequences of what would 
happen if Congress does not provide a supplemental going 
forward in the next few weeks?
    What would the impact of that be? I don't even really want 
to think about it, but I think for the record we need to get 
your views on that this morning.

                            DELAYED FUNDING

    Secretary Donovan. It's an absolutely critical question, as 
we welcome Senator Murray here. Good to see you.
    Administrator Fugate I think began to answer that question 
with a very, very important point. No matter--obviously, FEMA 
will need further resources at some point. But even if they had 
unlimited resources, there are constraints on what FEMA can do, 
legislative restraints, that will stop in their tracks 
homeowners and communities from rebuilding.
    A homeowner that is waiting for a decision about whether 
they will have more than $31,000 to rebuild literally cannot 
get on with their life if there is not a decision about whether 
CDBG resources would be available in a supplemental. Similarly, 
a small business has access to assistance from SBA, the Small 
Business Administration, but they too are limited. In fact, 
ironically, what we often see is that because SBA has loan 
programs the smaller businesses that, because their 
neighborhoods are destroyed or deeply damaged, their prospects 
are shaky at this point. Supporting a loan, even if they could 
do it before the storm, is going to be impossible after the 
storm.
    So we have thousands of small businesses that literally are 
stopped in their tracks with the decision of whether they could 
rebuild or not and support jobs in those communities until a 
supplemental is decided. Those are decisions that need to be 
made not 6 months from now, but literally in the next few weeks 
for those communities and those people, those families, those 
businesses, to be able to move on.
    I would also just add that this goes beyond just those 
types of decisions. We all know and Senator Lautenberg could 
attest to how important the economy of the shore is in New 
Jersey, and whether or not we are able to move quickly enough 
to restore the small businesses that support jobs in those 
places for the summer season is a decision that, if we wait 
now, if we don't have a supplemental, and that summer season is 
missed, it will be an entire other year for those businesses 
before they can begin to recover, and that may be the death of 
many of those businesses.
    I would also say there was eloquent testimony this morning 
and I think many of you mentioned the importance of mitigation. 
That is something that will be an important part of what we are 
focused on and I will be focused on. But as we plan literally 
in the next few weeks and months on how to rebuild the 
infrastructure of the region, decisions will be made about 
whether we rebuild smarter or stronger, and we can't go back 
and restart those plans 6 months from now.
    So knowing now what resources are available to be able to 
do those smart mitigation measures as we rebuild infrastructure 
is critically important for not delaying those plans for 
rebuilding.

                       PUBLIC ASSISTANCE REFORMS

    Senator Landrieu. Thank you.
    Administrator Fugate, let me ask you this. Senator Cochran 
and I worked hand in hand after Hurricanes Katrina and Rita 
over the last few years to streamline public assistance. 
Witnesses from both our States presented testimony to House 
Transportation and Infrastructure Committee yesterday calling 
for reforms. Senator Cochran had some folks from Mississippi; 
we had some folks from Louisiana there.
    I'm interested in specifically how these reforms will be 
implemented, what difference they will make. Can you give us a 
few examples in just the minute left about how some of these 
reforms will aid in the recovery if we can provide these tools 
for you--advance funding, global settlements, arbitration, 
etcetera? You said something in your opening statement, but 
could you elaborate?

                       REFORM DISASTER ASSISTANCE

    Mr. Fugate. I think most importantly we are using 
flexibility that's inherent in the Stafford Act in ways that 
was intended and not limiting ourselves. But there are some 
challenges. One is in doing estimates. We would very much like 
to go in and agree with local jurisdictions in the State, like 
a hospital. Charity is a good example, but with NYU and others 
in New York, there's like seven hospitals we're going to be 
looking at just in one area. It would make a lot more sense to 
me if we came up with a design phase, and that we would provide 
funding to come up with what it was going to take to do the 
repairs for the uninsured losses; then, rather than doing that 
as a reimbursement project, once we've agreed to those numbers, 
we would issue a final estimate.
    The problem is that, in the Stafford Act, it refers to only 
actual costs, and there's always been the issue of what happens 
if we do that type of a block grant based upon a design-build 
phase? We're going to need some additional guidance from 
Congress as to how we do these types of estimates, what would 
happen to appeals, whether we need an arbitration. And also 
what happens to any funds that may remain after a project if 
they have economies and savings, would the applicant keep that?
    Again, the savings to the Federal Government would be 
reducing the oversight, and, as you know, for many local 
governments, reimbursement slows them down because they have to 
either bond out or get authority to build. Being able to 
provide them a block grant on the front end would significantly 
reduce our overhead, our management cost, but it does introduce 
concerns about what happens if the project estimates were off 
in the beginning.
    Senator Landrieu. Well, I'd like for this hearing, for you 
to submit as many of your suggestions for a smarter recovery 
and rebuilding to this subcommittee as soon as possible.
    Mr. Coats.
    Senator Coats. Well, thank you.
    This is quite a morning and we've got quite a challenge 
here without question. I do, Madam Chairman, have some 
questions that I would like to submit to Secretary Donovan and 
Administrator Fugate. But I don't want to take my time here, 
but with your permission I'll submit those questions and you 
can get answers back to us.
    I want to focus now on not just the funding needed for the 
recovery portion of this, the response and recovery, but I 
think if there's a common theme throughout the morning's 
testimony by the various Senators it is that, how do we get 
beyond just the basics of recovery and restoration to really 
the mitigation aspects, and the kind of challenge that we're 
looking at there relative to what could turn out to be an 
extraordinary cost.
    When you look at the map that was presented here in terms 
of the extent of this storm, the population that lives within 
that red zone and purple zone, the density of construction, 
businesses, etcetera, we're talking about an enormous amount of 
money in order to do I think the mitigation that would be 
necessary to bring us into that so-called 21st century 
protection from what appears to be ever-increasingly 
devastating storms. And we're not even talking about other 
types of disasters, terrorist attacks and so forth.

                          INVEST IN MITIGATION

    So we have a real fiscal challenge here. I would just like 
to get your thinking to what your responses, what was going on 
in your head as the various Senators and all of us are 
basically saying, the smart thing to do is to use the lessons 
from Hurricanes Katrina, Irene, and now Sandy and other 
disasters in terms of the infrastructure changes and the 
changes necessary to mitigate and lessen future costs.
    We've talked about dunes and restoration, we've talked 
about seawalls and we've talked about subways and underground--
just wiring the east coast underground, given the density of 
the population here and the cost of doing that, is just mind-
boggling. So how do we move forward from here?
    I think this of course goes to the challenges you, 
Secretary, will have as you continue to work on the recovery--
on the long-term plans for this kind of thing. So give us your 
general thoughts in terms of the enormity of this challenge?
    Secretary Donovan. Senator, I would really mention three 
things here. The first, you know the old Hippocratic Oath: Our 
first job is to do no harm.
    Senator Coats. Right.
    Secretary Donovan. And I think Senator Landrieu and 
Administrator Fugate just began to talk about this, but we have 
to be smart. One of the things the President has said 
relentlessly to all of us on the Cabinet every time we've sat 
down with them on the response here and other disasters is: If 
there are regulations that stand in the way of doing smart 
things, cut the red tape. Provide waivers, do whatever's 
necessary, whether it's doing these kind of bulk settlements 
that allow, instead of rebuilding the school exactly where it 
was in Louisiana--in Mississippi, you'll certainly remember 
that we provided a lot of flexibility under a CDBG to do smart 
things in terms of rebuilding a port and other things in a way 
that was smarter than there was before.
    So first and foremost, we have to find ways not at the 
Federal level to stand in the way of those smart decisions, but 
encourage them, and with whatever money we have that's going to 
allow that money to go farther and to be smarter.
    Second, we will--and you will see when we provide our 
supplemental request from the administration this week. You 
will see that we propose to invest in mitigation. We know now 
studies from FEMA and elsewhere that for about every $1 that we 
invest in mitigation we get $4 back in avoided costs over time. 
That is something that we have to recognize as we go in.
    So the Federal Government investing in these, recognizing 
the fiscal limits that we have, but investing in a smart way, 
making a specific part of this proposal in each of the areas 
that we go forward focused on mitigation is going to be 
important.
    The third thing I would say--and this is I would hope part 
of the reason the President asked me to do this. You know, I've 
worked in the private sector in both New York and New Jersey 
and one of the things I know is that there is a real potential 
here, if we are avoiding future costs, if we're avoiding higher 
insurance costs, if we're avoiding private sector costs in the 
future, there should be a way to capitalize the benefits in the 
future into private sector funding today.
    So one of my principles in leading this is that the Federal 
Government should be a leader, not the only leader but a 
leader, in doing smart mitigation, but we have to look to our 
partners at the State and local level. We also need to look to 
the private sector to help leverage whatever funding we can 
provide to do these kind of smart things, because they're going 
to be the beneficiaries as well if we avoid this kind of damage 
from happening again.

                               MITIGATION

    Senator Coats. Administrator Fugate do you want to comment 
on that?
    Mr. Fugate. Yes, Senator. I think we can show that in New 
Jersey, New York, Connecticut, and other areas, where we've 
used the flood insurance map programs to illustrate risk and 
homes were elevated, many of them had minimal damage and were 
able to be reoccupied when the power came back. Homes that 
weren't built elevated were oftentimes heavily damaged or 
destroyed.
    That's not going to be the answer in dense populated areas 
like lower Manhattan. As we've seen with New Orleans, sometimes 
systemwide mitigation may be a more effective strategy than 
structure by structure.
    I'd also caution about going underground. I seem to 
remember everything in Manhattan was underground, including a 
hospital's entire imaging unit and emergency room that were 
flooded by salt water and destroyed. So part of this again 
looks at where does it make sense to talk about this on a 
homeowner basis and where does it make sense to talk about 
hardening or mitigating.
    Also with the science community, because, as the chairman 
has noted, there are many different ways across the world to 
deal with these types of issues. Most of ours have been really 
focused on residential by residential, and once you get into a 
dense urban area, that solution is not going to work. We have 
to really focus on that type of infrastructure and the best way 
to mitigate future damage.
    Senator Coats. Thank you.
    Senator Landrieu. Senator Lautenberg, questions?
    Senator Lautenberg. Thanks very much, Madam Chairman. In 
your area, when Hurricane Katrina hit you showed what 
persistence did to make sure that your area was treated fairly. 
And even though I must tell you many of us weren't joyful to 
hear your requests, but nevertheless the outcome was great, and 
you have set an example for what has to be.
    Our country has to be prepared to protect its borders, 
whether it's from military or other kinds of incursions or the 
establishment of a program that says that if you build here, 
you live here, that your roof should not be able to be taken 
away from you without the Government helping to restore things.
    I commend Secretary Donovan. One of the questions that I 
thought about when I heard that you had this assignment was how 
much your youth had to do with this, because it may take a long 
time to solve the problem. But we commend you for your work.
    Administrator Fugate, you and your people have established 
one thing, that when the call goes out that the country is 
there to help their people. And they're not only heroic, but 
they're willing to take on whatever assignments come along. It 
made us all feel pretty good.
    Secretary, The Times reports that the President's going to 
request between $45 and $55 billion for Hurricane Sandy relief. 
Can you confirm a number here? You did say that we'll have more 
information before the week is out.

                   REQUEST FOR HURRICANE SANDY FUNDS

    Secretary Donovan. Senator, I would just say I'm not sure 
where those reports are coming from. The facts are that we are 
still working on what our request will be. We do not have a 
specific number, and we will continue to work with you, with 
the Governors and the mayors to refine those numbers before 
they are submitted. But we do expect to submit something this 
week to Congress.
    Senator Lautenberg. One thing I can tell you, that this 
picture without the USACE project, homes were destroyed all 
over the place. A couple of miles away, less than a couple 
miles, we see what happened as a consequence of the beach 
replenishment, the berms being established. There's almost no 
damage there. So it confirms what we already have seen in the 
past.
    The fact is that none of the 50 States, not one, is exempt 
from a time when nature turns their back on them and creates 
problems that cannot be handled within normal State resources.
    So we encourage you to understand that the number that's 
proposed is really important. I don't want to talk about good 
starts or things of that nature. That would be insulting to the 
entire project. But the fact of the matter is that we have to 
examine more of the resources available, how much of the relief 
can come from insurance coverage.
    So we anxiously await, Mr. Secretary, the opportunity to 
examine what the proposal is. And I assure you, we're going to 
pull a Landrieu if we must.
    Thank you very much.
    Secretary Donovan. Senator, if I could just comment on that 
for a moment. First of all, I couldn't agree more and I think 
everyone who has visited the shore in New Jersey has seen the 
enormous differences between places that invested in these kind 
of mitigation and those that didn't, and has seen with their 
own eyes that mitigation can work and avoid far more costs 
later on.
    I would also, though, mention, as Administrator Fugate did, 
that there are many places--almost everywhere that we invest in 
the recovery, we need to think about mitigation, whether it's 
elevating individual homes--that made an enormous difference. 
It's as we rebuild transportation infrastructure. So this is 
not just about a budget for the USACE. It is about a 
comprehensive approach in just about every program that we're 
taking on to think about mitigation.
    The last thing I would just say is on the request. I want 
to make sure it's clear that one of the things that we're 
doing--New York and New Jersey put together, and other States 
put together, numbers for what they thought the damages were. 
Part of that is already covered by money that FEMA had at the 
time that the disaster happened, as well as some of those costs 
are going to be covered by insurance or others.
    So I want to make sure--there's an $80 billion number out 
there--that we're talking apples to apples as we bring forward 
our request. That's one of the things that we're doing right 
now, is saying, okay, among those $80 billion in costs, which 
are already covered by existing resources at FEMA, in flood 
insurance, which are ones that need to be taken care of but 
will be taken care of by private insurance, and what is left 
for the Federal Government to have to cover? I think that's one 
thing that may have at this point sort of been missed in at 
least the way the press is looking at this, is that what the 
Governors gave us was not Congress has to pass $82 billion. 
It's these are the damages; let's work with you to figure out 
what needs to be covered by the Federal Government.

               FEMA APPROPRIATIONS--DISASTER RELIEF FUND

    Mr. Fugate. And Senator, Madam Chairman, as you understand, 
in the DRF we are still funding damages to Hurricane Katrina. 
So we understand that what we're asking for in a supplemental 
will actually be what we anticipate we will have to obligate in 
this fiscal year. It will require again looking at the DRF in 
each annual appropriation for out-year recovery costs, both to 
these and other disasters.
    So the FEMA dollar, while people say, well, that may be a 
low number, it's not based upon the total damages. It's based 
upon what we expect we'll need in this fiscal year. And the way 
that you have set up the DRF is to fully appropriate those 
dollars based upon annual expenditures, not the total damages 
of a singular event.
    Senator Landrieu. Thank you.
    Senator Cochran. And I want to recognize that Senator 
Murray has joined us, and then we'll go to Senator Mikulski and 
then Senator Murray.

                              MISSISSIPPI

    Senator Cochran. Madam Chairman, thank you very much.
    I appreciate very much your willingness to convene our 
subcommittee and discuss issues relating to debris removal and 
all of the things that follow after a hurricane hits a region. 
The consequences of storms like Katrina and Sandy are 
overwhelming for the survivors. They complicate people's lives, 
destroy homes and businesses, and change the landscape. A lot 
of the destruction is not just to private property, but also to 
public infrastructure and Government facilities like training 
bases. As an example, I think about the special operations 
riverine training areas on the border of Louisiana and 
Mississippi. Removal of debris that Hurricane Katrina deposited 
in the Pearl River along our border with Louisiana has still 
not occurred nearly 7\1/2\ years after the event due to 
bureaucratic processes that have prevented the two FEMA regions 
from cooperating on such projects. Louisiana had funding 
available and was willing to use it on the Mississippi half of 
the river to remove debris, but FEMA told them they couldn't do 
it, even though it was obviously in the interest of the 
taxpayers to combine the work. So the training of some of our 
Nation's best military forces along this river continues to be 
interrupted by Hurricane Katrina debris.
    So Governor Haley Barbour probably wondered if it was 
something he said that made somebody mad or whether Senator 
Landrieu was just more eloquent in her plea for assistance.
    Senator Landrieu. We have our ways.
    Senator Cochran. I'm not saying that it was wrong to 
reimburse Louisiana and not Mississippi, but it sure does make 
you wonder, you know? Take a look at that and see if that 
process can't be re-examined in an effort to use common sense 
and fairness.
    As you know, full recovery from a storm such as Hurricane 
Sandy doesn't happen very quickly. To address this, both 
Senator Landrieu and I introduced the Disaster Recovery Act 
late last year. Senator Landrieu and I worked very hard on it 
to try to implement some of the lessons learned from previous 
storms and I invite your attention to the challenges and 
solutions that we've identified here in the Senate on these 
issues. We look forward to your careful and thoughtful 
administration of this bill if it is enacted.
    These things sometimes are not ended very quickly. 
Hurricane Katrina still hangs over us. I think that with 
Hurricane Sandy, there are opportunities to reexamine how the 
Federal Government addresses disaster recovery and to address 
adequate supplemental funding.
    Thank you very much for all you're doing. We encourage you 
to use the FEMA funds that have and will continue to be 
provided as intended and as spelled out in the law.
    If you find that there's something that we've left out or 
needs attention, don't be ashamed to call it to our attention. 
Thank you for appearing before our committees for these 
purposes as we go forward in trying to help the people recover 
from these terrible events.
    Senator Landrieu. Thank you, Senator Cochran. And thank you 
for raising the issue of marine debris. That is going to be a 
huge issue for this coast in the Northeast, as it was in the 
gulf coast. And those rules and regulations are all tied up in 
knots. Let's use this opportunity to get that straight, because 
there are going to be lots of debris in these marshes, rivers, 
wetlands, and islands along this east coast, and it's just not 
necessary for people to suffer the way we did trying to get 
that debris because there are different jurisdictions, 
etcetera, etcetera.
    So thank you for raising that. I want the staff to make a 
note of that so we can make sure we address that.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Madam Chair.
    I don't want to pull a Landrieu. I'm going to pull with 
Landrieu to get the supplemental through.
    Senator Lautenberg. Well, if you're not careful you'll have 
a Mikulski and that is worse, trust me, than a Landrieu. Trust 
me. You will be happy to have a Landrieu. Am I not right, Patty 
Murray?
    But go ahead, Senator.
    Senator Mikulski. Well, that was going to be my next 
sentence.
    But really, I want to thank you and the ranking member. I 
think this has been a great hearing. Also, what you bring is 
experience in this area, both as a Senator and a Louisianan, 
and a great sense of response, compassion, but also reform, 
understanding that we're in a frugal environment.
    So we've got a big job. But I think if we work together out 
of moving on the supplemental we can institute reforms, respond 
in a very creative, compassionate way, and yet keep an eye on 
the bottom line. I think that's what the people of the country 
and those affected would want us to do.
    Right now there is heartbreak in Maryland. But I do want to 
comment quickly on the things that are working. We do want to 
thank the President for issuing so quickly and promptly the 
general disaster declaration.
    We want to thank Secretary Napolitano--I've spoken to her--
on her availability.
    To FEMA: You have been on the job and you also have 
declared that we're eligible for public assistance, and we want 
to thank you for that. Our problem is the individual 
assistance, and outcome.
    And HUD: I never thought HUD would get high marks on the 
Eastern Shore, but you are, and also in other parts of the 
State where there is compelling need, in which you've responded 
particularly to the most vulnerable populations and those that 
are in assisted or subsidized housing.
    Secretary Donovan. Thank you.

                  HELPING CITIZENS IMPACTED BY STORMS

    Senator Mikulski. So we want to thank you for that.
    We in Maryland--first of all, we're a water State. We have 
the ocean, we have the bay, we have rivers that feed the bay, 
like the Susquehanna, that could flood, and that terrible 
flooding, and the Potomac. We in Maryland, we're part of 
reform. I used to chair the funding of FEMA, so I'm a FEMA 
reformer.
    We practice the three R's: Readiness, response, and now 
recovery. Readiness, I think it worked. It certainly worked in 
Maryland. Governor O'Malley with his insistence on excellence--
we were ready. We were ready and we were resilient.
    We also had what we call our beach replenishment on Ocean 
City. That protected $2 billion worth of property because we 
did spend public money to protect private property. That 
worked.
    But now we're into the recovery phase, and this--and the 
response was great. We had heroic people. Remember, we were hit 
by a hurricane on the shore and coming up our bay, all the way 
to the Inner Harbor and the port of Baltimore, and then we were 
hit by this blizzard in the western part of our State, which is 
the Appalachian State. We needed the National Guard to respond. 
We had State troopers and other emergency responders on 
snowmobiles going in to take care of the elderly and get them 
out to warmth and safety. So we did all that.
    So now here we are. Now I'm going to just--a quick word 
about the shore. You've heard what they say: Rich in tradition 
and pride, hardworking in commercial fishing and agriculture, 
hit by a drought, hit by diesel fuel, hit often by what they 
consider unfair government regulations, cash poor, community 
spirit.
    So my question--and an unemployment rate in that area that 
is among the highest in the State. You think of Baltimore City, 
but it's at 9 percent--9 percent--and in some communities it's 
30 percent. Sixty-two percent of the children are on school 
lunch programs.
    So you get the picture. I mean, I could go through 
demographics.
    Now, we know the regulations. Okay, there's the 
regulations. There's always the regulations. But my question to 
you, Mr. Fugate, and to you, Secretary Donovan--and I 
appreciated your compassionate remarks. It's not only how are 
we going to check the box, but how can we think outside of the 
box to do two things: one, help people get through, be eligible 
for assistance and to get through this very hard time; and then 
also, as you've talked, Secretary Donovan, be looking at our 
counties in terms of new opportunities for economic development 
and the restoration of livelihoods.
    Could you comment on that?
    Mr. Fugate. Yes, Senator. There's kind of a joke in staff 
that I seem to have lived and grown up everywhere. I actually 
went to Town Creek Elementary School in Lexington Park, 
Maryland, when my dad was stationed at Patuxent River.
    Senator Mikulski. Right. I think they still talk about you.
    Mr. Fugate. Yes, probably.
    But I grew up as a kid on the Patuxent River. So I know 
exactly what you're talking about with the river community, 
people who make their living oystering and crabbing, the 
tourism. These are blue-collar communities. Just because you 
live near the water is not a sign that it's wealthy.
    So our commitment is again--I sometimes struggle with when 
we say no because it's never easy, but it doesn't mean we're 
not going to work with the Governor and see what we can do. I 
think it's got to be based upon what the needs are. And if the 
FEMA programs are not going to work, it doesn't mean that we're 
going to walk away.
    But I also think you pointed out some issues that I want to 
make sure the Governor captures that may elevate that expressed 
need, particularly the localized trauma and impact, as well as 
damages that may not have been there on the initial surveys, 
but have become a problem as more examination has been done. 
We'll work with the Governor on that. But we'll also continue 
to work to support the citizens who were impacted by the storm.
    Secretary Donovan. Senator, I would just add to that that 
thinking outside the box is exactly right. We have one of the 
most flexible tools. As many of the Senators on the panel, 
including Senator Murray, who's our Appropriations chair, 
knows, CDBGs have been a very, very important tool in recovery. 
We've now had more than $30 billion that's been used expressly 
to help communities recover from disasters through the CDBG.
    Already we have worked with the State to move CDBG money to 
places that have been affected. Some of the very developments 
that you're thinking about, I believe, on the Eastern Shore 
where we've been working, it's CDBG money that's been able to 
come in.
    On that front, I would just compliment Senators Landrieu 
and Cochran for the work that they did after Hurricanes Katrina 
and Rita to learn from those lessons. There's a very thoughtful 
reform proposal that they've put together for CDBG, and I think 
you will see in our supplemental that we are proposing a number 
of changes that will help CDBG be an even more effective tool 
for exactly the kinds of challenges that you're talking about.
    I'm not sure if Mrs. Barbour will ever forgive me for all 
the late night calls I had to make to the Governor's mansion 
when I was working with Governor Barbour. And Senator Landrieu, 
you know this as well. Some of the barriers that we ran into, 
the decisions that were made, some of them just didn't make any 
sense, and where they were in my power I changed them and we 
made CDBG much more flexible in the responses to Hurricanes 
Katrina and Rita.
    What I will also say is some of them I couldn't change, and 
I think your proposal--I would really compliment you for the 
thoughtful work that's gone into that and it's something I 
think you'll see reflected in the work we're doing, and it will 
be very helpful to Maryland.
    Senator Mikulski. I can tell you, I know Mrs. O'Malley. 
She's Judge O'Malley. She won't care if you keep calling 
Governor O'Malley at night. I'll call her now and say, are you 
in for the program, and she would say yes.
    But in all seriousness, first of all, you are a creative 
administrator. Both of you are. So I won't prolong the 
generosity of the chair in having me participate here. But it 
is my hope and my prayer for my community that's affected that 
we would think not only of the bridge during the very hard time 
for individual families but how we look at economic 
development.
    I would invite you, as you're looking at your regulations, 
as you're assessing what the Governor's going to submit, which 
we will support, if you would consider visiting us, visiting us 
to look at what this is, so we can not only respond, but we can 
also lay the groundwork for reform to be able to really help 
our communities that are so hard hit and so hardscrabble, but 
are so terrific.
    Senator Landrieu. Thank you, Senator Mikulski.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Senator Landrieu. 
Thank you so much for holding this hearing and for your 
tremendous work on this really critical issue. Obviously, I am 
not from a State impacted by this hurricane or by the one that 
impacted you, but as Americans we all have to come together. 
And we can learn from this and we can do some things that are 
really important. As chair of the HUD Committee, I want to make 
sure we use this to help those people in this country that have 
been hurt dramatically but also to make sure we're getting it 
right.
    And I just wanted to thank you as well for mentioning 
debris. Obviously, we don't have a hurricane, but there was in 
Japan a tremendous disaster that's hitting the west coast, 
understand the debris issue as well. None of us knows what's 
going to impact us. So really, Chairman Landrieu, really 
appreciate your working on this issue.
    Obviously, Secretary Donovan and Administrator Fugate, 
thank you for your words here. A very impressive first panel, 
listening to so many Senators that have just seen tremendous 
things happen to their citizens, and we all need to stand up 
and help them now as well.
    But as I said, we have to learn from this and get it right. 
I was listening to your response to Senator Mikulski on the 
CDBG in particular. I know we have worked to make that more 
flexible. I think that there's been some proposals out there 
about making it more flexible.
    But I'd like to go back and ask you: What issues have you 
seen in particular with CDBG that say to you this is what we 
need to change?

                          DISASTER BLOCK GRANT

    Secretary Donovan. A number of the things have to do with 
simply the fact that CDBG is envisioned as a block grant for 
regular sort of course of business, not only on housing but 
infrastructure and other community needs. So the types of 
things that we have run into, depending on the nature of the 
disaster, the income targeting requirements have been an issue 
at times. I think you will see that there is a broad range of 
communities that have been hit. And if we are doing awards, for 
example, to a locality that was hit hard that just happens to 
be a higher income community, it may make it harder to provide 
assistance that's needed with those. So that is an issue we're 
looking at.
    A second would be simply the process that is required in 
putting together the plans for CDBG. What make sense for public 
participation and other things during normal course of business 
when there's not a disaster may not make sense at a time when 
you have the urgency of a disaster in order to get the money 
flowing, as we talked about earlier.
    Those are the types of things that we've been looking at.
    Senator Murray. So the regular CDBG program works as we all 
think about it in terms of regular order. Do we need to be 
looking at how we use it in a disaster and providing 
flexibility within that disaster, not changing the general CDBG 
rules?
    Secretary Donovan. Exactly right, and I'm glad you 
clarified that, Senator. I am not talking about these are 
reforms that are needed for CDBG everywhere. What Senators 
Landrieu and Cochran and others worked and what actually we 
looked at when we were putting together the National Disaster 
Recovery Framework, should we think about--well, let me put it 
this way. Every single time we've had a disaster and we 
allocate CDBG money, we've done it sort of in a customized way.
    What we thought was maybe we'd step back and think about a 
disaster block grant specific provision that could be sort of 
taken off the shelf and used each time which is different from 
the way that regular CDBG works. It builds on it because there 
are lots and lots of strengths there, and that's exactly what 
the Senator has put together and we have been looking at in 
putting together the supplemental.
    But I'm glad you--this is not to say there's something 
wrong with CDBG in normal times. It's just that disasters are 
different and that we need to maybe customize it for those 
specific areas.
    Senator Murray. Okay, good. Well, I'd really like to work 
with you on that. So if you can continue that conversation with 
us as we move forward.
    The other thing I wanted to ask you quickly was, Hurricane 
Sandy in particular impacted a lot of residents living in our 
Section 8 housing, HUD-assisted housing units. Can you tell us 
a little bit about the status of the housing that you've seen 
in your capacity?

                      HELPING SECTION 8 RESIDENTS

    Secretary Donovan. Absolutely. This is a critical, critical 
piece of the immediate response work that we do at HUD. We have 
hundreds of thousands of either public housing units or 
assisted housing units that we are working on. The first and 
most immediate issue was as the storm was approaching--we have, 
as you know, housing for people with disabilities, housing for 
seniors. We were very focused on making sure we understood who 
needed to be evacuated in advance, working with local 
authorities to do that; and then specifically focusing after 
the storm on those residences that had the most vulnerable 
people there and did have to do some number of evacuations 
there.
    A second area that we were very focused on was restoring 
through generators, through temporary boilers, heat, hot water, 
electricity, as quickly as possible, because the fewer people 
we had to displace from their homes the more successful we were 
going to be in keeping those communities together, minimizing 
the harm to those families and the cost, frankly, to the 
Government.
    We had 75,000 people in New York City public housing alone 
that lost power and heat and hot water. We had meetings with 
the President where literally I was talking to Secretary 
Panetta about, could we use military planes to fly boilers in--
these are enormous boilers--to fly them in across the country, 
to get them there faster, to try to get those up and running.
    That has been replicated on a smaller scale in every 
community that we've been working with to try to target. I've 
talked to Mayor Booker, the mayors of Hoboken and Jersey City 
and so many others, Atlantic City, about those immediate needs. 
I'm happy to say that we are at a point where we've been able 
to restore power and electricity to every unit in the New York 
City Housing Authority and to the other ones where we didn't 
have to evacuate folks. So that has been a major, major effort. 
There were some where we had ruptured oil tanks or other things 
where we had to evacuate.
    Then the last thing that we've done, which I really give 
great, great accolades to our partners, the local housing 
authorities and others, we went out to all of our housing 
authorities in, I think, a 14-State region, all our private 
providers, and said: If you have vacancies, let us know, 
because we can then provide units to those who are going to be 
displaced for some period of time; we know they're income-
qualified and we can move them directly. We can pair them with 
other housing authorities or other housing, to be able to move 
them into units that are available today.
    We identified thousands of vacant units across the region 
that we made available as a resource to move folks into.
    Senator Murray. Have we re-housed all of our low-income 
families at this point?
    Secretary Donovan. What I would tell you is we still have 
questions about a very small number, in the hundreds at this 
point, because they may have a boiler or a generator that's 
going where we're worried that when it gets down to zero 
degrees it may not be adequate. So literally we're working very 
closely with FEMA over the next few weeks before it gets really 
cold to try to get electrical wiring, boilers reinstalled, re-
operative, so that we can avoid having to move those folks. So 
we are not done at this point, but we are down to a relatively 
small number of units, given the original total that we started 
with.
    Senator Murray. We really appreciate it. Thank you very 
much for your work.
    Secretary Donovan. Thank you.
    Senator Landrieu. Thank you.
    We're going to bring this to an end in just a moment. I 
have three questions, but I'm going to ask them and ask you to 
answer them in writing. But for the record, I want to make sure 
that, while Senator Murray's here, I can't underscore the 
significance of the need for flexibility in the disaster 
recovery grants that the Secretary has testified to. This was 
an idea that actually emerged after Hurricanes Katrina and 
Rita. I've had many local officials from the gulf coast call 
and say: Senator, have you told them our idea about a more 
flexible grant? So I want to say: Yes, I have told them about a 
flexible grant, because that is what local officials, Senator 
Murray, have asked for. It could also be very helpful to 
Senator Mikulski's need to get specific targeted funding to 
counties, that's not really allowable under the current FEMA 
rules but with some flexible block grant funding could 
potentially be very helpful.
    But the second, Secretary Donovan--or actually, to 
Administrator Fugate: It takes now 18 to 36 months for FEMA's 
hazard mitigation funding to work its way down to disaster-
affected communities because of all the process that you're 
familiar with. Could you please give us some suggestions as to 
how we could improve that within the next week so we can 
consider authorizing that in legislation? And would you support 
a policy to advance a small portion, let's say 10 or 15 
percent, so that the communities can get on with their work?
    [The response follows:]

    FEMA's priority is to move HMGP funds in a coordinated and swift 
manner that meets the standards established in statute and regulation. 
FEMA continues to provide technical assistance to States as projects 
are developed to ensure projects comply with all Federal, State and 
local laws. FEMA continues to examine new and creative ways to provide 
technical assistance to States especially in the wake of recent 
disasters. FEMA has several technical assistance contracts in place 
that will provide expertise, including but not limited to site visits, 
data development, and data evaluation. Contactors may also assist with 
cost-effectiveness and feasibility and effectiveness reviews to enable 
the program office to expeditiously review and award HMA funds so that 
projects can be implemented by State and local governments.
    FEMA is assessing HMGP to identify and eliminate barriers to 
project approval. The HMGP program office identified two critical areas 
for focus: Refine standards for complete applications; and identifying 
timelines for project review and request for information response 
actions and decisions. FEMA continues to monitor the targeted group of 
disasters and applicable projects that remain pending, and continues to 
meet with regional and State staff to identify challenges and discuss 
options for improving delivery, obligations, implementation, and 
closeout. FEMA is also exploring ways to utilize the benefit cost 
analysis models to address comprehensive community needs after a 
disaster, including environmental benefit and critical service delivery 
to citizens.
    On November 15, 2012, FEMA clarified its position on the 
eligibility of generators for critical facilities under the HMGP. The 
need for generators at critical facilities was demonstrated after 
Hurricane Sandy's impacts along the east coast. Generator projects must 
meet all HMGP eligibility requirements including, but not limited to, 
cost-effectiveness and feasibility. Generators will also continue to be 
an eligible activity under HMGP's 5 percent initiative.
    FEMA encourages States to submit projects early in the application 
period rather than at the end of the HMGP application period. The HMGP 
application deadline is 12 months after the disaster declaration date. 
FEMA may extend the application submission timeframe in 30- to 90-day 
increments not to exceed a total extension of 180 days with a total 
application period of 18 months. When States delay application 
submissions, FEMA's review is also delayed. States should submit 
applications to FEMA as applications are developed.
    Project templates, benefit-cost efficiencies and other resources 
have been developed to facilitate complete project development. 
Historically, the majority of projects submitted to FEMA have been 
incomplete at the time of submission. Incomplete projects require 
additional resources from FEMA, State, and local staff to bring to 
completion and subsequent approval. FEMA continues to develop tools for 
States and local communities to simplify the HMGP application process.

    Senator Landrieu. Number two, Administrator Fugate, last 
year Senator Cochran and I introduced legislation for temporary 
child care services under section 403 of Stafford. Will you 
please tell us within a week whether you're recommending that 
that go forward or not?
    [The response follows:]

    FEMA currently supports the funding of child care services through 
Public Assistance Policy 9580.107, a program enacted in 2010. http://
www.fema.gov/9500-series-policy-publications/child-care-services. The 
policy provides for eligible sheltering costs for items such as labor 
overtime costs and supplies, temporary relocation of facilities such as 
schools and other community services, and the repair of public or 
nonprofit facilities, such as day care centers.
    FEMA looks forward to working with our partners in Congress to 
discuss this matter, as we continue to work together to support 
communities as they recover from disaster, including ensuring the needs 
of families with children are met.

    Senator Landrieu. Then finally, these disaster loans. 
You'll hear me talk about this until I'm tired of saying the 
words. But can I ask you what $5 million in loan authorization 
is going to do to help any community? The operating budgets of 
these cities are billions of dollars, hundreds of millions of 
dollars. What--who ever came up with the $5 million cap?
    I mean, do you realize that that's all the money that a 
local government can borrow under this program, is $5 million? 
I don't know what--so no one has applied. I wouldn't either. 
It's of no use whatsoever.
    So could we have some suggestions from FEMA and from HUD 
about what the cap should be, under what circumstances should 
communities be able to borrow, up to what percentage 
potentially of their operating budget? You know, $5 million 
didn't help the City of New Orleans. Our budget is, I want to 
say--if I can remember this, I think it's about $600 million a 
year. What would $5 million help the City of New Orleans, when 
80 percent of our operating revenue disappeared overnight? So 
that is still an issue out there for local governments.
    [The response follows:]

    Multiple factors are considered in determining Community Disaster 
Loan (CDL) thresholds. FEMA is eager to work with Congress and our 
partners within the Federal family to discuss what should be the future 
circumstances under which loans would be made to communities, as well 
as the size and scale of future CDLs.

    Senator Landrieu. Again, just to conclude, without getting 
too much on a soapbox, Senator Coats is correct. This response 
cannot just be about the Federal Government bailing everybody 
out for every $1. It's got to be smart leveraging of the power 
of the local governments to leverage their own assets and using 
the power of the private market to leverage the assets we need 
for smart rebuilding. So those loans are important to leverage 
the assets of the local government.
    So while we don't have to give a grant in every case, we 
can do a combination of grants, give them power to leverage 
their borrowing capacity, and through new market tax credits 
and Gulf Opportunity zones, which is not the subject here but 
is an important part of this recovery that will come under 
Finance.
    So I just want to raise those issues. We found those to be 
very effective.
    Senator Coats, any final words?
    Senator Coats. Well, thank you very much for your 
testimony. I think this is very important. We're obviously 
going to have to do more of this. I just have two final 
questions here, if you could.
    Secretary Donovan, you had indicated the supplemental will 
probably be coming our way this week, which is in the next 
couple of days at the least. But do you have a sense of when 
the long-term recovery cost estimates will be available to us?

                      LONG-TERM RECOVERY ESTIMATES

    Secretary Donovan. We will provide with our request 
significant detail in terms of how we've arrived at those 
costs, and we would be happy to set up a follow-up meeting with 
you to go through those in detail. Just to give you an example, 
on housing we're already more than 90 percent complete with 
inspections of those homes. Similar for transit and other 
things.
    There is lots and lots of work that's been done over the 
past month to get to as strong an estimate as is possible. That 
is not to say that every category is final at this point, and 
certainly part of my job is going to be looking at, as 
Administrator Fugate said, what is the smartest mitigation 
strategy that varies from individual homes to more community-
wide approaches. But we will provide you with significant 
detail on how we arrived at it.

                     RESOLVING OUTSTANDING PROJECTS

    Senator Coats. That's good, and it helps me segue into the 
next question, for Administrator Fugate. That is, I think we're 
in the seventh year now of still handling long-term costs 
relative to Hurricane Katrina. So if you have some sense of 
when the requests--when we'll meet the end of those requests--
it just helps us put all this in context in terms of the relief 
fund and what we might need. So where are we on that now?

                        HURRICANE KATRINA FUNDS

    Mr. Fugate. Senator Coats, that is actually what we base 
our annual appropriation request on. Again, as we get into some 
of the more complex projects--as the chairwoman has pointed 
out, there are many projects that are still to be resolved in 
Louisiana, and I've been working. As Secretary Donovan has 
basically said, since this administration has come in, we've 
been dealing with a lot of the decisions made, trying to work 
to get to final answers, so we can get the building going. We 
still have construction in Mississippi.
    But we also saw Mississippi in Hurricane Isaac; mitigation 
saved us a lot of money, because there were a lot of fire 
stations and police stations that were up and running, and the 
same in Louisiana.
    Senator Landrieu. And the same in Louisiana. The mitigation 
worked.
    Mr. Fugate. There are some good examples.
    But this is again an annual appropriation based upon, not 
the total damages, but what we expect to be expended in that 
fiscal year. On some of these projects, like charity and other 
projects, it takes multiple years once a hospital starts 
construction to get through it. So it's based upon what the 
annual expenditures are on these disasters.
    Quite honestly, we would welcome any additional tools that 
could speed that process up so taxpayers know what their total 
obligations are as early as we can and give State and local 
governments the maximum flexibility then to expend those funds, 
versus every year having to come back for more money for all 
the disasters because we were doing it project by project as a 
reimbursement basis.
    Senator Landrieu. Let me follow that up if I could, Senator 
Coats, because you're absolutely right. No one is more anxious 
to close out the Katrina-Rita storm than the people on the gulf 
coast. We've been dealing with this now for 7 years. But thank 
you for raising that, Administrator, because if we provide, 
which I think we will, some new tools for the recovery that 
we're facing today, if we could use some of those tools that 
we're going to provide for the east coast sort of retroactively 
for Hurricanes Katrina and Rita and some other open disasters, 
potentially we could resolve the outstanding issues and save 
taxpayers money and save our local officials a lot of time.
    So let's think about that, because I think Senator Coats 
raises a good point. At some point you've got to close out past 
storms so we can focus our efforts on the storms that are 
before us. But there's still, unfortunately, Senator, some work 
that has to be done.
    Senator Coats. Yes. Very good. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. We will keep this record open for 1 week. 
Questions should be submitted to the subcommittee staff by 
close of business Wednesday, December 12.
    [The following questions were not asked at the hearing but 
were submitted to the Departments for response subsequent to 
the hearing:]
     Questions Submitted to the Federal Emergency Management Agency
            Questions Submitted by Senator Mary L. Landrieu
                 slow pace of hazard mitigation funding
    Question. Administrator Fugate, it typically takes 18 to 36 months 
for FEMA hazard mitigation funding to work its way down to disaster-
affected communities, even though FEMA typically conducts an initial 
grant calculation 1 month after a disaster is declared.
    The benefits of smarter land use, stronger building codes, and 
sustainable disaster-resistant construction are abundantly clear, but 
it seems to me that the program's current design significantly reduces 
its influence on post-disaster rebuilding because of the time lag in 
funding.
    Would you support a policy to advance to States a small portion, 
say 10 percent, of their estimated grant for project management 
activities like hiring staff to administer the grant, updating 
mitigation plans, formulating eligible projects, and beginning the 
lengthy process of environmental, historic, and benefit-cost reviews?
    Answer. We note that H.R. 219 that passed the House January 14, 
2013, provides for FEMA to advance up to 25 percent portion of Hazard 
Mitigation Grant Program (HMGP) funds to States post-disaster. 
Opportunities to mitigate after a disaster are often best addressed 
within the first several months after a disaster and communities would 
benefit from swifter access to funds that may assist with buy-outs, 
elevations and comprehensive community mitigation. FEMA also supports 
moving forward to allow States to utilize the managing State concept 
without regulations as included in the supplemental.
    Question. Do you believe that advancing some seed money would 
increase mitigation opportunities earlier in the rebuilding process?
    Answer. FEMA does believe that advancing some funding would 
increase mitigation opportunities only if the State submits projects 
for consideration earlier in the process. In many cases, States choose 
to make decisions on mitigation strategies and priorities only after 
convening panels or reviewing other options. State management cost 
funds, code assistance and planning projects could help States and 
communities identify projects in progress from previous events that may 
need to be revised due to impacts from the current event, and would 
allow communities to identify previous completed projects that 
functioned as designed during the current event. Improving the planning 
process may provide the States and communities a better initial list of 
potential projects, or identify unmet needs from previous events.
                               child care
    Question. As you know, the legislation I introduced with Senator 
Cochran last year authorizes FEMA to provide temporary child care 
services under section 403 of the Stafford Act in communities that 
suddenly find themselves unable to meet this essential need.
    It also authorizes families to use Individual Assistance funds 
provided under section 408 for the purpose of disaster-related child 
care expenses. You and I have discussed these issues at two separate 
hearings that I chaired on the unique needs of children and disasters, 
in conjunction with the National Commission on Children and Disasters 
and your leadership of the interagency Children's Working Group.
    Do you support these reforms?
    Answer. FEMA currently supports the funding of child care services 
through its Public Assistance Program as described in Fact Sheet 
9580.107, which was published in 2010. http://www.fema.gov/9500-series-
policy-publications/child-care-services. The Fact Sheet outlines 
eligible child care costs associated with sheltering such as labor 
overtime costs, minor modifications to the building to accommodate 
child care, and supplies. In addition, FEMA has determined that child 
care is an essential community service and therefore provides 
assistance for temporary facilities to allow eligible applicants to 
reestablish child care services they provided prior to the disaster. 
Private nonprofit day care centers may apply to FEMA for repair, 
restoration or replacement of their disaster damaged facilities after 
they apply for a disaster loan from Small Business Administration.
                           housing solutions
    Question. The Post-Katrina Emergency Management Reform Act included 
a pilot program for FEMA to repair damaged rental units in order to 
house disaster survivors.
    This program expired in 2009, and FEMA no longer has explicit 
authority to repair damaged rental units.
    The housing needs in the tri-State area resulting from Hurricane 
Sandy are great. I'm aware that FEMA has launched a pilot initiative 
called the STEP program to perform basic repairs on damaged homes.
    Would you like to see the rental repair pilot program re-
authorized? Could that authority be potentially useful in the context 
of this disaster?
    Answer. After the expiration of the Rental Repair Pilot Program, 
FEMA developed and began implementing the Multi-Family Repair Program 
under the direct temporary housing authority. The Multi-Family Repair 
Program consists of FEMA entering into a contract with a property owner 
to repair damaged multi-family housing in order to utilize the repaired 
property to house eligible FEMA applicants for up to 18 months from the 
date of the disaster declaration. During Hurricane Sandy response and 
recovery, FEMA proactively engaged the States in identifying potential 
eligible housing structures. The New Jersey State-Led Disaster Housing 
Task Force considered this option. Teams were deployed to assess 
potential buildings and meet with local officials to determine 
feasibility for this type of direct assistance. Although this option 
has not yet been utilized, FEMA continues assessing the need and 
identifying potential properties.
    FEMA is scheduling an after-action meeting to identify lessons 
learned from implementation of the program in Texas, Iowa, North 
Dakota, and Vermont to include the cost effectiveness. FEMA will 
continue to maintain this as a potential direct housing option based on 
the situation and circumstances of each event.
    Question. Are there other authorities that you need from Congress 
in order to effectively tackle your respective housing missions?
    Answer. FEMA is evaluating what authorities may best accomplish its 
housing mission and looks forward to working with Congress and our 
partners in the near future.
              case management and community disaster loans
    Question. Mr. Fugate, as I mentioned in my opening statement, FEMA 
has not activated its contract with Catholic charities to deploy case 
managers to the affected region. Case management was authorized after 
Hurricane Katrina to provide households with a single point of contact 
to connect them with resources to address their disaster-related needs, 
such as housing, job training and placement, education, healthcare, 
transportation, and child care.
    And to my knowledge, FEMA has also not entered into discussions 
with local governments about applying for Community Disaster Loans to 
replace lost revenue and sustain operations. Numerous communities have 
projected significant revenue losses as a result of the hurricane. 
Without stopgap assistance, they may be forced to lay off significant 
portions of their workforce that are important to recovery, such as 
permitting officials, building inspectors, community planners, finance 
and accounting staff, and even first responders.
    There certainly seems to be a need for these two programs, but for 
some reason, despite the scale of this event, they haven't been 
deployed.
    Can you please explain whether New York, New Jersey, and the other 
affected States have requested either of these programs, and whether 
the Federal Coordinating Officers or Federal Disaster Recovery 
Coordinators in each of these States have discussed these particular 
programs with the Governors?
    Answer. [Follows:]
Disaster Case Management
    New York and New Jersey requested immediate disaster case 
management (DCM).
    New York:
  --New York State also submitted a long-term DCM grant application and 
        was awarded a FEMA grant.
  --The State also requested that the American Red Cross provide 
        immediate disaster case management services to 1,300 survivor 
        households in the five New York City boroughs that are 
        receiving transitional sheltering assistance (TSA) from NYC 
        (non-FEMA TSA). Services to be provided include referrals to 
        Federal, State, and local social services programs, data 
        management to include entering case information into the 
        Coordinated Assistance Network (CAN) and assistance for 
        relocation to interim and/or permanent housing solutions.
    New Jersey:
  --New Jersey implemented an Immediate DCM Program together with HHS 
        ACF and their national contractor, Catholic Charities USA. They 
        began service on November 23, 2012, and are funded through a 
        mission assignment through the end of March.
  --The State submitted and received funding for a long-term DCM State 
        grant on January 29, 2013. The State has posted a request for 
        proposals (RFP) and is the process of selecting a DCM grant 
        management agency. Once the management agency is chosen, HHS/
        Administration for Children and Families will transition open 
        cases to the management agency. Local providers will then be 
        engaged to take on and transition open cases.
    Connecticut did not request immediate disaster case management. 
They are preparing a long-term DCM State grant application.
    Rhode Island did not request immediate or long-term disaster case 
management.
    FEMA continues to deliver technical assistance to States impacted 
by Hurricane Sandy and respond to questions about program services and 
the long-term DCM grant application process.
Community Disaster Loans
    Local jurisdictions in both New York and New Jersey have requested 
potential participation in the CDL program. However, only New Jersey 
has formally requested the program to date. FEMA met with New Jersey 
State officials on January 10, 2013, to begin the process of 
identifying those communities in need. We anticipate New York's 
request, but have yet to receive it.
    The CDL program has approximately $38 million apportioned to it, 
plus it has been appropriated $296 million in the supplemental funding 
from Public Law 113-02. CDLs are statutorily capped at a maximum of $5 
million per loan.
    The Federal Coordinating Officers in New York and New Jersey have 
been discussing the benefits of the CDL program with the Governors' 
authorized representatives.
    Question. Do you agree that disaster case management and Community 
Disaster Loans could assist households and communities severely 
impacted by Hurricane Sandy?
    Answer. [Follows:]
    Disaster Case Management.--Disaster case management (DCM) is 
currently being implemented in New York and New Jersey. DCM can assist 
households and communities severely impacted by Hurricane Sandy.
    Community Disaster Loans.--The Community Disaster Loan Program is 
yet another tool in the FEMA tool kit which allows FEMA to provide 
support and assistance by offering loans to local governments that have 
suffered a substantial loss of tax of others revenues as a result of a 
major disaster or emergency and demonstrates a need for Federal 
financial assistance in order to perform their governmental functions.
                        community disaster loans
    Question. The FEMA Community Disaster Loan Program provides vital 
funding to keep local governments afloat after a disaster has drained 
their economy by reducing tax revenues and increasing operating costs. 
This funding supports police and fire protection, trash collection, 
permitting, zoning, and other municipal functions.
    What have each of you heard from communities about the need for a 
Federal loan for operational expenses?
    Answer. Local jurisdictions in both New York and New Jersey have 
requested potential participation in the CDL program. However, only New 
Jersey has formally requested the program to date. FEMA met with New 
Jersey State officials on January 10, 2013, to begin the process of 
identifying those communities in need. We anticipate New York's 
request, but have yet to receive it.
    Question. Do you have a sense for how much communities will rely on 
this program?
    Answer. It is hard to determine how much communities will rely on 
the program beyond the historical perspective of the program. Since 
Katrina, 27 communities nationally have utilized the program for $70 
million in loans. During Katrina, 100 communities utilized the special 
CDLs for more than $1.2 billion in loans. However, by statute, the 
special CDLs did not have the $5 million cap that the ``normal'' CDL 
program has. Prior to Katrina, CDLs were last requested in the 1990s.
    Question. Is the current $5 million cap an obstacle for use in this 
disaster?
    Answer. While the cap is reasonable for smaller communities, larger 
communities would likely see the amount as only minimally beneficial to 
them.
    Question. If the cap is an obstacle, at what level should the cap 
be set to reasonably support community needs as a result of Hurricane 
Sandy? Should it be a percentage of a community's budget instead of a 
dollar amount?
    Answer. FEMA is eager to work with Congress and our partners to 
discuss what should be the future circumstances under which loans would 
be made to communities, as well as the size and scale of future 
Community Disaster Loans.
                 technology to measure storm intensity
    Question. Hurricane Sandy provides a sobering reminder of the 
importance of improving our ability to forecast severe weather events, 
in order to reduce risks to human life and property. I believe that we 
should harness the use of innovative technologies to improve hurricane 
intensity monitoring and forecasting.
    Would improved hurricane intensity forecasting and monitoring 
capabilities allow us to make better judgments on evacuations and also 
more wisely deploy resources for post-storm response?
    Answer. Yes. Improved hurricane intensity forecast and monitoring 
capabilities would benefit the entire weather enterprise and emergency 
management community by increasing and validating real-time situational 
awareness, and improving confidence in forecasts for response 
operations. Increased confidence in the current and forecast intensity 
at landfall would allow all levels of responders in the whole community 
to focus on the areas of greatest impact and make better use of that 
information in the evacuation timeframe, contingency planning, and 
response.
    As former National Hurricane Center director Max Mayfield said, 
``The battle of hurricanes is won in the offseason.'' In addition to 
improved intensity forecasts, the best approach includes comprehensive 
local, State and Federal planning that accounts for the inherent 
uncertainties which will continue to exist, particularly during 
timeframes when decisions need to be made in order to safely and 
successfully execute evacuations.
    Partnerships and communication practices implemented by the FEMA 
Hurricane Liaison Team and National Hurricane Program also demonstrate 
the importance of translating improved intensity forecast information 
to better response outcomes, including the rapid exchange of critical 
forecast communication with all partners and key stakeholders in the 
emergency management community during a hurricane response. FEMA has 
also developed successful storm surge monitoring capabilities in 
partnership with the U.S. Geological Survey, whereby ``storm surge 
sensors'' are deployed prior to the arrival of a hurricane, augmenting 
existing tide gage monitoring networks to provide real-time situational 
awareness on storm surge inundation--water depth over land--at the 
coast. With the proper formatting of data and information collected by 
these storm surge sensors, FEMA is able to prepare rapid, geospatially 
enabled storm surge inundation damage assessments to guide the 
deployment of post-storm resources and assistance to the public.
    Question. Has FEMA considered using technologies, such as surface 
robotics, to gather real time data that may improve hurricane intensity 
forecasting?
    Answer. FEMA has been an integral partner in NOAA's Hurricane 
Forecast Improvement Program (HFIP), participating in workshops, 
meetings, experimental research and other projects within the program. 
This has included providing feedback into the development of future 
modeling, forecasting and diagnostic products as well as--through the 
FEMA Hurricane Liaison Team--working at the National Hurricane Center 
to communicate the results of real-time observational, track and 
intensity forecast information to key partners as it relates to 
impacts, planning and response activities. As mentioned in response to 
the first question, FEMA has also developed a capability to monitor and 
capture real-time storm surge inundation data through mission 
assignment to the U.S. Geological Survey. Using storm surge sensors and 
Real-Time Kinematic GPS instruments, FEMA assigns USGS the mission of 
collecting observed surge inundation data prior to, during, and 
immediately following the landfall of hurricanes. As the USGS reports 
instrument and field-based observations of storm surge inundation, FEMA 
geospatial analysts develop rapid inundation damage assessments using 
Geographic Information Systems technology for response and recovery 
operations guidance. The data captured by the USGS is also provided to 
the NOAA National Hurricane Center for their use in calibrating 
hurricane and storm surge forecast models.
    Question. Is FEMA collaborating with NOAA and other agencies to 
develop inter agency agreements to capitalize on new innovative 
technologies that could improve our capacity to predict and monitor 
hurricane intensity?
    Answer. FEMA (as part of the National Hurricane Program) 
collaborates with NOAA's National Hurricane Center annually under an 
interagency agreement (IAA) to develop and run hurricane storm surge 
prediction models (SLOSH) to predict and monitor storm surge height and 
extent for (1) pre-season hurricane evacuation planning, and (2) real-
time prediction of storm surge height and extent for evacuation 
decisionmaking by State and local governments.
    Additionally, through the FEMA Modeling Task Force (MOTF), a team 
of risk analysis experts support disaster operations with real-time 
hazard and impact assessments for hurricanes, including storm surge, 
riverine flooding, and coastal flooding. The MOTF provides a 
comprehensive data resource for viewing technical data from a variety 
of sources. These include other partners such as the U.S. Geological 
Survey, NOAA, universities, national labs, and State and local 
agencies. The result is an innovative portal to develop consensus for 
best estimates of impacts including potential losses, damage 
assessments, and potential population impacts.
                                 ______
                                 
           Question Submitted by Senator Frank R. Lautenberg
    Question. Under FEMA policy, the Federal share of disaster funding 
may be increased above 75 percent once the damage in a State reaches 
$131 per capita.
    Do you expect New Jersey to reach this threshold?
    Answer. Pursuant to the Stafford Act, the Federal share for the 
Public Assistance program is to be not less than 75 percent. The 
President sets the Federal share. Pursuant to 44 CFR 206.47, FEMA will 
recommend an adjustment to 90 percent Federal share when total Federal 
obligations under a disaster meet or exceed a qualifying threshold. For 
disasters declared in 2012, that threshold is $131 per capita. Based on 
the State's 2010 Census population of 8,791,894, total Federal 
obligations, less FEMA's administrative costs, under the New Jersey 
major disaster declaration for Hurricane Sandy will have to reach 
$1,151,738,114. As of January 15, 2013, New Jersey was at $72.96 per 
capita.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
     relationship between fema and the department of transportation
    Question. Administrator Fugate, have you determined and signed an 
agreement with the U.S. Department of Transportation (DOT) laying out 
the responsibilities between DOT and FEMA since the passage of MAP-21 
which altered DOT's responsibility to pay activities after a disaster 
during Stafford Act declarations?
    Answer. The Department of Transportation's Federal Transit 
Authority and FEMA are currently working together to draft the 
memorandum of agreement. In addition, the two agencies are coordinating 
closely in the field to ensure efficient provision of assistance to 
public transportation agencies impacted by Hurricane Sandy.
                        community disaster loans
    Question. Administrator Fugate, if a proposal were made to 
eliminate the dollar cap on Community Disaster Loans for catastrophic 
disasters has FEMA analyzed the financial impact such a proposal would 
have? What would be the risk to the Federal Government?
    Answer. Eliminating the dollar cap on Community Disaster Loans 
would lead to larger loans on the street. The risk to the Federal 
Government of eliminating the cap would be that these larger loans 
might be canceled. Historically, 84 percent of Community Disaster Loans 
and 43 percent of Special Community Disaster Loans defaulted or were 
forgiven, resulting in $1.067 million cost to the Federal Government.
    Question. What recommendations would FEMA make to have the 
Community Disaster Loan program be more applicable to cities, counties, 
school districts, and other government entities today?
    Answer. Any of these entities are currently able to apply for the 
CDL program.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Administrator Fugate, we are nearly 7\1/2\ years removed 
from Hurricane Katrina's landfall on the gulf coast. I am personally 
aware of several cases of Federal assistance related to my State's 
experience with Hurricane Katrina that have yet to be resolved or have 
only been resolved recently. It is my understanding that FEMA has been 
carrying out the law as written but that you are limited in your 
ability to resolve some of these types of cases as quickly as you might 
like. This pattern does not bode well for the States affected by 
Hurricane Sandy. When it comes to these large-scale disasters, have you 
analyzed the costs to Federal, State and local governments associated 
with negotiating and litigating thousands of cases, sometimes for 5 or 
even 10 years? Are there specific measures you might recommend we 
consider to eliminate some of these bureaucratic exercises for 
Hurricane Sandy recovery?
    Answer. FEMA supports and appreciates many of the flexibilities 
included in division B of the Disaster Appropriations Act, 2013 (Public 
Law 113-2), which will reduce the cost to the Federal Government in the 
administration of the Public Assistance (PA) program. These included: 
increased flexibility in administration of the PA program, measures to 
expedite the provision of assistance to PA applicants, and financial 
incentives and disincentives for PA applicants for timely and cost-
effective completion of PA projects with FEMA assistance. These 
measures also included providing permanent work and debris grants based 
on estimates, allowing FEMA to accept PA applicant's professional 
certified estimates or the use of a third-party professional validation 
of estimates, allowing for FEMA to pay for municipal force account 
straight time for debris removal, and providing incentives for pre-
disaster debris management plans with at least one pre-qualified debris 
contractor.
    Question. How long will the disaster relief funds currently 
available to FEMA continue to provide for an expedient rate of recovery 
from Hurricane Sandy?
    Answer. The Disaster Relief Fund provides resources for all 
Presidentially Declared emergencies and major disasters. DRF funds are 
typically available until expended. In 2012, section 251(b)(2)(D) of 
the Balanced Budget and Emergency Deficit Control Act of 1985 (BBEDCA) 
was amended to include a discretionary cap adjustment for disaster 
relief. This has facilitated a shift away from a reliance on 
supplemental appropriations for all but the largest disaster events by 
allowing for some amount of pre-funding, based on FEMA spend plans for 
prior catastrophic events and the rolling average annual cost of non-
catastrophic disasters. As a result, the spending ``tail'' for 
Hurricane Sandy will be accounted for and accommodated in future 
administration budget requests, along with other catastrophic disasters 
such as Hurricane Katrina and Tropical Storms Isaac and Irene. However, 
absent any additional appropriations, based on FEMA's current estimates 
of anticipated disaster spending requirements, including Hurricane 
Sandy, FEMA would implement Immediate Needs Funding during March 2013.
    Question. At this point, how confident can we be in any total 
damage estimates for Hurricane Sandy?
    Answer. Based on data currently available, we are confident in the 
fiscal year 2013 estimates for Hurricane Sandy submitted by the 
administration as part of its supplemental for the Disaster Relief Fund 
(DRF). As with all major disasters, FEMA will continue to assess and 
report on DRF estimates as part of its required monthly congressional 
reporting, and provide updates to these estimates (upward or downward) 
as needed based on new or additional information by disaster and in 
total for the DRF.
    Question. What is the precedent for Congress providing some portion 
of recovery funds based on damage estimates in the near term, followed 
by additional necessary amounts as we gain confidence in these 
estimates over the coming months and maybe even years?
    Answer. Following Hurricane Katrina in 2005, two emergency 
supplemental appropriations were enacted as a result of Hurricane 
Katrina. On September 2, 2005, 1 week after landfall, Emergency 
Supplemental Appropriations Act, Public Law 109-61 provided $10 billion 
to meet the consequences of Hurricane Katrina. One week later on 
September 8, 2005, a second Emergency Supplemental Appropriations Act, 
Public Law 109-62 provided an additional $49.885 billion. By December 
30, 2005, a portion ($24.874 billion) of the supplemental funding had 
been rescinded. Yet by June 2006, additional supplemental funding of 
$5.962 billion was restored. In fiscal year 2007, another Supplemental 
Act (Public Law 110-28) was passed, which provided $4.256 billion for 
Hurricane Katrina recovery aid.
 Questions Submitted to the Department of Housing and Urban Development
            Questions Submitted by Senator Mary L. Landrieu
                        disaster recovery grants
    Question. Secretary Donovan, I have spoken with you several times 
since Hurricane Sandy about the need to provide flexible Disaster 
Recovery Grants to affected States and communities through your 
Department to address housing, infrastructure, economic revitalization, 
community planning, and other unmet needs.
    HUD has administered disaster recovery funding through its 
Community Development Block Grant program since the early 1990s for 
these activities.
    I am interested in the advantages that these grants have in 
comparison to other sources of Federal recovery funding, but also in 
ensuring that they are not overly bureaucratic.
    Do you agree that funding should be allocated to States and by 
States on the basis of damage and unmet disaster-related needs, and not 
based only on income level?
    Answer. Yes. The States and New York City were designated as CDBG-
DR grantees in order to more effectively and efficiently get funds into 
the hands of those who need it most while providing oversight. For some 
smaller potential grantees, these CDBG-DR allocations would have been 
up to a hundred times more money than they are accustomed to handling 
in this program which could overwhelm the program and lead to delays in 
disbursement.
    HUD's allocations are based on estimated unmet recovery needs. HUD 
receives the data from FEMA and SBA identifying damage estimates in 
major disaster areas. The supplemental directs that at least 50 percent 
of each CDBG-DR grant must be expended on activities that principally 
benefit low- and moderate-income persons. This requirement may only be 
waived if there is a finding of ``compelling need.''
    Question. After Hurricane Katrina we got mired in red tape with the 
CDBG program. What specifically can you recommend we do to expedite the 
commitment of funds to projects, and drawdown of those funds to rebuild 
as quickly as possible?
    Answer. In an effort to cut red tape, HUD worked directly with the 
Hurricane Sandy grantees in developing their CDBG-DR action plans to 
more quickly expedite the commitment of funds to various recovery 
projects. Additionally, CDBG-DR funding was allocated by HUD faster 
than ever before--8 days following enactment of the Hurricane Sandy 
supplemental legislation.
    Long-term recovery and redevelopment efforts start immediately 
following a disaster, and it is important for the Federal Government to 
take a coordinated regional approach to delivery of assistance. That's 
why the President established the task force--to have a group focused 
solely on long-term region-wide rebuilding and delivering cabinet-wide 
coordination and engagement on recovery--even as response activities 
continue. The Hurricane Sandy Rebuilding Task Force has also convened 
an Advisory Group of the most impacted elected officials at the State 
and local level so that they can provide the Federal agencies with 
direct and routine input regarding CDBG-DR or other program recovery 
issues.
    Question. What authorities do you need to ensure States get the 
technical assistance they need and we make this program as efficient as 
possible?
    Answer. No additional authorities are necessary to be able to 
ensure States get the technical assistance they need. The Department is 
providing CDBG-DR technical assistance through its staff and OneCPD 
Technical Assistance Program.
                           housing solutions
    Question. The Post-Katrina Emergency Management Reform Act included 
a pilot program for FEMA to repair damaged rental units in order to 
house disaster survivors.
    This program expired in 2009, and FEMA no longer has explicit 
authority to repair damaged rental units.
    The housing needs in the tri-State area resulting from Hurricane 
Sandy are great. I'm aware that FEMA has launched a pilot initiative 
called the STEP program to perform basic repairs on damaged homes.
    Would you like to see the rental repair pilot program re-
authorized? Could that authority be potentially useful in the context 
of this disaster?
    Answer. After the expiration of the Rental Repair Pilot Program 
(RRPP), FEMA developed and began implementing the Multi-Family Repair 
Program (MFRP) under the direct temporary housing authority. In 
coordination with the Sandy Task Force, FEMA is reviewing lessons 
learned from previous implementations of the MFRP and RRPP to build out 
the requirements under the new Sandy Recovery Improvement Act 
authority, and as we proceed these will be shared with our partners and 
provide input to the development of the United Federal Review called 
for in the Disaster Relief Appropriations Act and Sandy Recovery 
Improvement Act of 2013, which added section 429 to title IV of the 
Robert T. Stafford Disaster Relief and Emergency Assistance Act.
    Question. Are there other authorities that you need from Congress 
in order to effectively tackle your respective housing missions?
    Answer. HUD and FEMA are evaluating what other authorities may best 
accomplish its housing missions and looks forward to working with 
Congress.
   national disaster recovery framework and secretary donovan's role
    Question. The National Disaster Recovery Framework calls for a 
Federal Disaster Recovery Coordinator to coordinate Federal support for 
disaster recovery, in the same fashion that the Federal coordinating 
officer (FCO) coordinates Federal support during the response phase.
    The recovery framework also designates six recovery support 
functions and a Lead Federal Agency for each one. The Recovery 
Framework command structure was implemented for the first time after 
Hurricane Isaac struck Louisiana earlier this year, and the President 
has appointed separate Recovery Coordinators to assist New York and New 
Jersey for Hurricane Sandy. The President also designated you, 
Secretary Donovan, to lead the long-term recovery effort.
    Please explain the relationship between your new role and the role 
of the Federal Disaster Recovery Coordinators.
    Answer. The National Disaster Recovery Framework formalized an 
organizational structure for long-term recovery, under the leadership 
of Federal disaster recovery coordinators (FDRCs). There are currently 
FDRCs assigned to New York, New Jersey, and Connecticut.
    The FDRCs are responsible for the coordination of the six Recovery 
Support Functions: Infrastructure, Housing, Economic Development, 
Natural and Cultural Resources, Health and Social Services, and 
Community Planning and Capacity Building. The Recovery Support 
Functions are the structure for problem solving, improving access to 
resources, and fostering coordination among State and Federal agencies, 
NGOs, and other stakeholders. Each one is led by a designated Federal 
agency with programs particularly relevant to that functional area.
    The task force works in collaboration with the FDRC/RSF leadership 
provided through the National Disaster Recovery Framework, providing 
coordination to support rebuilding objectives and to ensure the Federal 
Government continues to provide the necessary, appropriate support to 
the region. Due to the size and regional scope of Sandy's devastation, 
the task force was established to complement the FDRC/RSF structure, 
and to focus on the interagency, regional, cross-cutting issues.
    Question. How do you plan to encourage regional planning for 
efficient rebuilding?
    Answer. In August, the Hurricane Sandy Rebuilding Task Force will 
issue a comprehensive, locally driven rebuilding strategy that will 
focus on helping communities rebuild in a way that makes them more 
resilient and economically sustainable. The strategy will also include 
an implementation plan to ensure continued cross-government 
coordination and collaboration as the plan is executed.
    The task force has also convened an advisory group of the most 
impacted elected officials at the State and local level to seek direct 
and routine input regarding changes that are needed to cut red tape and 
help them be more efficient and effective. Additionally, the task force 
has set up regional offices to ensure we are always engaging State and 
local partners.
    One goal of the task force is to identify and share best practices 
adopted by other communities in the wake of disasters and to help 
communities apply those lessons to their own rebuilding efforts.
    An example of this work is an announcement HUD made in March to 
help communities get CDBG-DR funding into homeowners' hands more 
quickly. We released several model programs, based on best practices 
from other areas, that local governments can modify and adapt to launch 
their own programs to repair homes and small businesses and offer their 
citizens' housing counseling or, where appropriate, buyouts. Giving 
communities these model programs means they don't have to reinvent the 
wheel and design new programs from scratch--which ultimately means 
homeowners and businesses get money more quickly.
    Additionally, throughout the CDBG-DR Sandy Notice, HUD incorporates 
guidance regarding mitigation:
  --First, the needs assessment must take into account the costs of 
        incorporating mitigation and resiliency measures to protect 
        against future hazards.
  --Second, in its action plan, the grantee must describe how it will 
        encourage mitigation of hazard risk and how repair, 
        rehabilitation, reconstruction, and new construction are 
        designed (where possible) to incorporate principles of 
        sustainability, including mitigating the impact of future 
        disasters.
  --As part of its action plan, the grantee must also identify how it 
        will address the mitigation needs of each impacted Public 
        Housing Authority (PHA) within its jurisdiction.
    Question. The private sector and nonprofit organizations both play 
a major role in the long-term recovery of communities following a 
natural disaster. What non-governmental resources are you seeking to 
leverage for the recovery?
    Answer. Private sector participation in the rebuilding effort is 
essential, whether from local businesses, nonprofits or local 
philanthropic partners. We have created a philanthropic and private 
sector partnerships position on the task force to track and engage with 
corporations for aligned activities and funding as well as plan for 
long-term projects.
    The task force is working closely with the private sector to ensure 
that our activities and investments are aligned. Secretary Donovan has 
reached out to several private sector organizations to encourage their 
involvement in the recovery effort, and a number have stepped forward 
at least partially as a result. For example, Angie's List is providing 
free, 1-year memberships to 1,000 homeowners in the New York City tri-
State area to help with Sandy relief by making it easier for families 
to find local contractors, auto repair specialists, and healthcare 
professionals who are highly rated by other consumers. Walk Score has 
launched a Web site to support people in search of temporary housing 
after Sandy. HotelTonight announced a $60,000 contribution to the 
American Red Cross to support relief efforts for Sandy victims.
                           low-income housing
    Question. How many units, of those that were damaged or destroyed 
by Hurricane Sandy, were affordable to low-income households?
    Answer. The analysis shows approximately 45,000 rental units with 
damage due to Sandy, 15,200 of those with both serious damage and a 
tenant with an income of $30,000 or less.
    For HUD's multifamily assisted housing portfolio, there were a 
total of 199,295 units in the impacted areas for the States of New 
Jersey and New York. Of those units, 5,538 units had moderate to severe 
damage. At the current time, there are 178 residents that have not 
returned to their units.
    HUD's data on public housing shows 1,840 units damaged, 603 not yet 
repaired as of February 14, 2013.
    HUD matching of voucher tenant address to FEMA data on flood levels 
indicate more than 1,200 units occupied by voucher holders suffered 
significant damage.
    Question. What resources are needed to rebuild those low-income 
units?
    Answer. As owners and PHAs are still processing their claims with 
their insurance companies and developing their recovery plans, we do 
not know post-insurance estimate of affordable housing repair costs and 
what the gaps will be at this time. However, the Department is and will 
continue to monitor closely the estimates and anticipates working with 
the CDBG Disaster Recovery grantees to ensure that addressing 
affordable rental housing recovery is a top priority use of those 
funds. For instance, the initial action plans for New Jersey, New York 
State, and New York City approved by HUD include funding for public 
housing repairs, repair of multifamily buildings and other housing 
repair programs to repair and rebuild such units.
                         leveraging volunteers
    Question. Volunteers have proven to be at the backbone of a 
disaster recovery and their work will require a long-term, sustained, 
and coordinated response. Volunteer management and support resources, 
such as housing and transportation, will be critical in the ability of 
nonprofits to implement their work in a variety of areas such as 
housing reconstruction, support for displaced persons, and neighborhood 
clean-up.
    What support should the Federal Government provide to nonprofit 
organizations to enable them to engage the tens of thousands of 
Americans wishing to contribute their time and skills to Sandy recovery 
efforts?
    Answer. The majority of nonprofit organizations that work with 
volunteers on a regular basis are experts in effectively managing and 
leveraging volunteer resources. Following a disaster, FEMA leads the 
Federal effort to maintain open communication with affected States, 
which in turn work with local recovery partners to identify critical 
needs and support needed by those organizations. Every disaster 
presents unique challenges and as such, it is important that the 
Federal Government work closely with the States when considering these 
challenges and strive towards solutions that will expedite the delivery 
of services to meet the needs of disaster survivors.
                        community disaster loans
    Question. The FEMA Community Disaster Loan Program provides vital 
funding to keep local governments afloat after a disaster has drained 
their economy by reducing tax revenues and increasing operating costs. 
This funding supports police and fire protection, trash collection, 
permitting, zoning, and other municipal functions.
    What have each of you heard from communities about the need for a 
Federal loan for operational expenses?
    Do you have a sense for how much communities will rely on this 
program?
    Is the current $5 million cap an obstacle for use in this disaster?
    If the cap is an obstacle, at what level should the cap be set to 
reasonably support community needs as a result of Hurricane Sandy? 
Should it be a percentage of a community's budget instead of a dollar 
amount?
    Answer. I am aware that FEMA is working with the impacted 
communities to process community disaster loan requests; however, we 
defer to FEMA regarding the specifics of the program.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Both Governor Christie and Governor Cuomo have submitted 
assessments that reflect the need for mitigation projects like widening 
and strengthening beaches and dunes.
    If we had invested more in Army Corps beach projects in New Jersey 
before Hurricane Sandy, could we have avoided some of the pain and 
suffering, as well as costs to taxpayers?
    Answer. We are aware that the President has called for investment 
in our infrastructure and for the establishment of a National 
Infrastructure Bank; however, we cannot speak to the programs, 
projects, and activities of the Army Corps.
    Question. Some are saying we should wait until FEMA's disaster 
relief fund runs dry this spring for Congress to appropriate more 
disaster relief funding.
    But other disaster programs already have little or no funding. 
Those programs include the FTA's Emergency Relief Program, the Economic 
Development Administration's disaster program, and Community 
Development Block Grants.
    How will the lack of funding for these programs hamper recovery 
efforts?
    Answer. Prior to sequestration, nearly $11 billion was appropriated 
to the Public Transportation Emergency Relief program and $16 billion 
was appropriated in CDBG-DR funds. This funding as well as the billions 
in other program funding is critical to the ability of the region to 
recover and improve resilience for future disasters.
    Question. Local governments are often in the best position to 
understand the most urgent needs for their community after a disaster.
    What specific plans does the administration have to provide 
flexibility to State and local governments that allows them to meet 
their individual needs?
    Answer. HUD has been working directly with States and localities to 
design action plans that meet their specific needs. Under HUD's CDBG-DR 
program, grantees may use Federal funds for a variety of disaster 
recovery activities that include:
  --Housing (includes rehabilitation, new construction, buyouts, mold 
        remediation);
  --Economic development (includes grants or loans for small businesses 
        for working capital, machinery and equipment, real property 
        repair/improvement);
  --Infrastructure (includes repair, reconstruction, new construction, 
        acquisition);
  --Public services (up to 15 percent of allocation includes activities 
        such as job training, health services, housing counseling, day 
        care, etc.); and
  --Administration (limited to 5 percent by the act).
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
                  national disaster recovery framework
    Question. The National Disaster Recovery Framework was released in 
September 2011. Secretary Donovan, the role the President asked you to 
take in the coordination of recovery efforts is not included in the 
National Disaster Recovery Framework. How does the role fit within the 
framework?
    Answer. The National Disaster Recovery Framework formalized an 
organizational structure for long-term recovery, under the leadership 
of Federal disaster recovery coordinators (FDRCs). There are currently 
FDRCs assigned to New York, New Jersey, and Connecticut.
    The FDRCs are responsible for the coordination of the six Recovery 
Support Functions: Infrastructure, Housing, Economic Development, 
Natural and Cultural Resources, Health and Social Services, and 
Community Planning and Capacity Building. The recovery support 
functions are the structure for problem solving, improving access to 
resources, and fostering coordination among State and Federal agencies, 
NGOs, and other stakeholders. Each one is led by a designated Federal 
agency with programs particularly relevant to that functional area.
    The task force works in collaboration with the FDRC/RSF leadership 
provided through the National Disaster Recovery Framework, providing 
coordination to support rebuilding objectives and to ensure the Federal 
Government continues to provide the necessary, appropriate support to 
the region. Due to the size and regional scope of Sandy's devastation, 
the task force was established to complement the FDRC/RSF structure, 
and to focus on the inter-agency, regional, cross-cutting issues.
    Question. Secretary Donovan, you have described the National 
Disaster Recovery Framework as being focused on individual States--not 
multi-State scenarios. Given that HUD and FEMA were the lead agencies 
coordinating and writing the National Disaster Recovery Framework, and 
that it was written with the experiences of the Federal Government 
during Hurricane Katrina firmly in mind--why doesn't it address a 
multi-State catastrophic disaster situation? One which may require 
coordination of infrastructure needs across more than one State?
    Answer. This is a difficult balance in part because the Stafford 
Act creates a relationship between the Federal Government and 
individual States directly. Much of the statutory authority supporting 
the NDRF is focused on the Federal/State relationship. However, we know 
that in large disasters, the damage is rarely confined to one State. In 
addition, many of the infrastructure systems and assets which create 
and support resilience have interdependencies and cross State and other 
political boundaries. The President's Hurricane Sandy Rebuilding Task 
Force has taken on this issue and is working with the grantees and the 
Federal agencies to drive regional cooperation and planning across both 
technical areas and geography.
    Question. Last year Hurricane Irene devastated large areas of the 
northeast United States with severe inland flooding. Why is this storm 
different? Why didn't the States recovering from Hurricane Irene need a 
``coordinator'' for long-term recovery such as your role for Hurricane 
Sandy?
    Answer. Hurricane Irene made landfall in North Carolina on August 
27, 2011, and moved up the east coast affecting 15 States and the 
District of Columbia. The National Disaster Recovery Framework was 
released in September 2011; and guidance had not yet been developed to 
operationalize the NDRF in an actual field operation when Irene made 
landfall.
    However, FEMA did appoint Federal Disaster Recovery Coordinators in 
Pennsylvania and New York and tested select NDRF fundamentals. This 
mission, along with other subsequent missions, greatly contributed to 
the effective development of operational guidance for the NDRF.
                       funding needs for recovery
    Question. Secretary Donovan, when will you identify and have cost 
estimates for the long-term recovery needs of the impacted States?
    How will the Federal share of those long-term recovery needs be 
properly determined?
    Answer. Based on data currently available, we are confident in the 
fiscal year 2013 estimates for Hurricane Sandy submitted by the 
administration as part of its supplemental request. As with all major 
disasters, HUD will continue to work with FEMA, SBA and other partners 
to continue to assess cost estimates and long-term recovery needs.
    Question. Secretary Donovan, let me step back to your role as 
Secretary of Housing and Urban Development, what is the current 
situation in finding temporary long-term housing for folks still in 
shelters?
    Answer. To assist families who are still struggling to locate 
housing after being displaced by Hurricane Sandy, the Federal Emergency 
Management Agency (FEMA) and the U.S. Department of Housing and Urban 
Development (HUD) have reinstituted the Disaster Housing Assistance 
Program (DHAP), a rental assistance program that provides temporary 
rental payments directly to landlords to help families displaced by 
disasters. DHAP-Sandy will help families find intermediate housing as 
they rebuild their lives. This program is funded by FEMA and links 
disaster survivors with case managers who will help them develop and 
implement a disaster recovery plan.
    The DHAP program was created in 2007 and provided a temporary 
housing solution to thousands of families who were displaced by 
Hurricane Katrina. It successfully supported 37,000 families who were 
not previously HUD-assisted following the 2005 hurricanes--Katrina and 
Ike. The DHAP program was also utilized to house families displaced by 
Hurricane Gustav in 2008.

                         CONCLUSION OF HEARING

    Senator Landrieu. Again, thank you for your expert 
testimony. The meeting is recessed.
    [Whereupon, at 12:13 p.m., Wednesday, December 5, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 
</pre></body></html>
